Audit Report




OIG-14-024

Audit of the Office of the Comptroller of the Currency’s
Fiscal Years 2013 and 2012 Financial Statements

February 4, 2014




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               February 4, 2014


            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audit

            SUBJECT:                Audit of the Office of the Comptroller of the Currency’s
                                    Fiscal Years 2013 and 2012 Financial Statements


            I am pleased to transmit the attached audited Office of the Comptroller of the
            Currency (OCC) financial statements for fiscal years 2013 and 2012. Under a
            contract monitored by the Office of Inspector General, Williams, Adley & Company-
            DC, LLP (Williams Adley) an independent certified public accounting firm (IPA),
            performed an audit of the OCC’s financial statements as of September 30, 2013
            and for the year then ended. Another IPA audited the OCC’s financial statements
            as of September 30, 2012 and for the year then ended and expressed an
            unmodified opinion on those financial statements. The contract required that the
            audit be performed in accordance with generally accepted government auditing
            standards and applicable provisions of Office of Management and Budget Bulletin
            No. 14-02, Audit Requirements for Federal Financial Statements.

            The following reports, prepared by Williams Adley, are incorporated in the
            attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, Williams Adley found:

                •   the financial statements were presented fairly, in all material respects, in
                    accordance with accounting principles generally accepted in the United
                    States of America;
                •   no matters involving internal control over financial reporting that are
                    considered material weaknesses; and
                •   no instances of reportable noncompliance and other matters.
In connection with the contract, we reviewed Williams Adley’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. Williams
Adley is responsible for the attached auditors’ reports dated November 20, 2013
and the conclusions expressed in the reports. However, our review disclosed no
instances where Williams Adley did not comply, in all material respects, with
generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789 or a member
of your staff may contact Ade Bankole, Manager, Financial Audit at
(202) 927-5329.

Attachment
                                               THEN AND NOW

 The OCC at a Glance: 1863                                      The OCC at a Glance: 2013
 Employees                                                8     Employees (full-time equivalents)                            3,823
 Offices                                                  1     Office locations*                                                66
 Budget authority                                  $15,800      Budget authority                                      $1.02 billion
 OCC-supervised institutions, total assets     $16.8 million    OCC-supervised institutions, total assets            $10.4 trillion
 OCC-supervised institutions, share of                          OCC-supervised institutions, share of
                                                       4%*                                                                    69%
 total U.S. commercial banking assets                           total U.S. commercial banking assets
 OCC-supervised institutions                            134     OCC-supervised institutions                                  1,808

Source: OCC Annual Report, November 28, 1863                      Large banks                                                    40
*Estimated.                                                       Midsize banks                                                  41
                                                                  Community banks                                            1,164
                                                                  Federal savings associations                                 515
                                                                  Federal branches                                               48
                                                                Revenue derived from assessments                              97%

                                                               *This number does not include the multiple locations the OCC
                                                               maintains in some large cities. In addition, the OCC has a continuous,
                                                               on-site presence at large banks under its supervision.
About the OCC

The Office of the Comptroller of the                               In supervising banks, the OCC has the
Currency’s (OCC) mission is to charter,                               power to
regulate, and supervise national banks
and federal savings associations                                         •  examine banks.
(collectively, banks) and to supervise                                    •  approve or deny applications for
the federal branches and agencies of                                      new charters, branches, capital, or
foreign banks. The OCC’s goal is to                                       other changes in corporate or banking
ensure that these institutions operate                                    structure.
in a safe and sound manner and in                                        •  take supervisory and enforcement
compliance with laws requiring fair                                    actions against banks that do not
treatment of their customers and fair access                         comply with laws and regulations or that
to credit and financial products. The OCC is                     otherwise engage in unsafe or unsound
an independent bureau of the U.S. Department of the         practices.
Treasury.                                                •	 remove and prohibit officers and directors,
                                                            negotiate agreements—both formal (i.e., public)
The President nominates the Comptroller of the              and informal (i.e., non-public)—to change banking
Currency subject to confirmation by the U.S. Senate.        practices, and issue cease-and-desist orders as well
The Comptroller also serves as a director of the            as civil money penalties (CMP).
Federal Deposit Insurance Corporation (FDIC) and         •	 issue rules and regulations, legal interpretations,
NeighborWorks America.                                      supervisory guidance, and corporate decisions
                                                            governing investments, lending, and other
Headquartered in Washington, D.C., the OCC has 66           practices.
office locations, including four district offices and
an office in London that supervises the international    The OCC and the federal banking system were
activities of national banks. The OCC’s nationwide       created by the National Currency Act, which President
staff of bank examiners conducts on-site reviews of      Abraham Lincoln signed into law on February 25,
banks and provides sustained supervision of these        1863. In June 1864, the National Currency Act was
institutions’ operations. Examiners analyze asset        substantially revised and expanded, and in 1874 was
quality, capital adequacy, earnings, liquidity, and      given a new name: the National Bank Act. It remains
sensitivity to market risk for all banks, and assess     the basic statute under which the OCC and the federal
compliance with federal consumer financial laws for      banking system operate today.
banks with less than $10 billion in assets. Examiners
also evaluate management’s ability to identify and       The first Comptroller of the Currency was Hugh
control risk, and assess banks’ performance in meeting   McCulloch, formerly the president of the state-
the credit needs of the communities in which they        chartered Bank of Indiana. McCulloch went to
operate, pursuant to the Community Reinvestment Act.     Washington to argue against passage of the National
                                                         Currency Act but soon came to appreciate its merits.


	                                                                                       About the OCC	          1
Salmon P. Chase, Lincoln’s Secretary of the Treasury,
asked him to lead the new system, and McCulloch
agreed.                                                                        About This Annual Report
                                                                               Section 61 of the National Currency Act of February
Under McCulloch, his successors, and a professional                            25, 1863, directed the Comptroller of the Currency
staff of national bank examiners, the new system                               to report annually to Congress “a summary of the
made an important contribution to the robust growth                            state and condition” of the national banking system,
                                                                               along with suggestions for “any amendment to the
of the U.S. economy. Banks under OCC supervision
                                                                               laws relative to banking.” Over the past century and
issued a uniform national currency, which replaced                             a half, some of the most significant changes to the
the previous varied and unreliable money supply, and                           U.S. financial system—including the amendments
provided financial services across the country.                                to the National Currency Act enacted by Congress
                                                                               in 1864—began with recommendations contained
                                                                               within the report’s pages. Since that time, the
On July 21, 2011, under provisions of the Dodd–Frank
                                                                               OCC Annual Report has chronicled and advanced
Wall Street Reform and Consumer Protection Act of                              the long evolution of the nation’s financial and
2010,1 the Office of Thrift Supervision (OTS) became                           regulatory structure, providing the American people
part of the OCC. As a result, the OCC is responsible                           and their representatives with information about the
                                                                               federal banking system—a system that is vital to the
for the supervision of federal savings associations,                           country’s economic security and well-being.
under the Home Owners’ Loan Act.




1
    Hereafter referred to as Dodd–Frank in this report.


2	           Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
Contents

About the OCC 	                                               1	


Comptroller’s Viewpoint 	                                     4	


Section One: Year in Review 	                                 8	


Section Two: People in OCC History 	                         27	


Section Three: Condition of the Federal Banking System 	     31	


Section Four: OCC Leadership 	                               33	


Section Five: Licensing and Enforcement Measures	            37


Section Six: Financial Management Discussion and Analysis	   40	


Abbreviations 	                                              	


Index 	                                                      80	




         3
	Contents	
Comptroller’s Viewpoint

One lesson of modern history is that no country can
achieve its economic potential without the support of
a healthy and dynamic banking system. For 150 years,
the federal banking system has served as the financial
engine of our nation’s economy, evolving to keep
pace with changes in the marketplace to ensure that
American businesses and consumers have a banking
system that is safe and sound, and capable of meeting
their financial needs. In the year just passed, both the
federal banking system and the OCC continued to
evolve as we addressed problems left over from the
financial crisis and took steps to better enable us to
meet the challenges of the future.

In the years since the financial crisis, OCC-supervised                      historical standards, put a damper on new mortgage
banks and thrifts have recovered significantly, and that                     originations, especially in refinancing activity.
trend gained momentum in the fiscal year ending on                           Employment growth remained anemic, and uncertainty
September 30, 2013.2 Banks stepped up their lending                          overseas, especially in China and the European Union,
activities, simultaneously fueling and reflecting the                        hampered growth.
improving economy. Better performance of existing
loans—and the consequent decline in what banks                               These broad economic trends are of great concern, but
set aside for losses—meant that more money was                               as Comptroller, I am also concerned with something
available for lending. Much of that lending went to                          much more fundamental: restoring the public trust in
businesses for start-up and expansion. Rising prices in                      the banking system that was lost during the financial
many U.S. housing markets and new record highs on                            crisis. I firmly believe that the restoration of trust in
Wall Street made many consumers feel more confident                          the system requires that we restore confidence in bank
about their financial future and, therefore, more likely                     supervision.
to borrow to buy homes, cars, and other products and
                                                                             In 2013, one of the OCC’s goals was to bring to a
services.
                                                                             fair resolution the many cases of bank operational
Still, the overall economy and the banking system                            breakdowns, ranging from pervasive problems in
continue to face significant headwinds. Throughout                           foreclosure processing to the lapses in Bank Secrecy
most of 2013, low short-term interest rates pinched                          Act and anti-money laundering compliance. In the
bank margins, and the abrupt increase in mortgage                            case of the foreclosure processing breakdown, we
rates toward the end of the year, although still low by                      redirected the process to provide $3.3 billion in cash
                                                                             payments and more than $5 billion in indirect aid to
2
  Except as otherwise indicated, all dates in this Annual Report reference
                                                                             borrowers. This action, which we took jointly with the
the 2013 fiscal year, which ran from October 1, 2012, to September 30,       Board of Governors of the Federal Reserve System,
2013 (e.g., “March” means March 2013).


4	         Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
not only has brought aid to millions of homeowners          go a long way toward shoring up the system to help
who went into the foreclosure process but also will         prevent future financial storms.
play a significant role in restoring public trust in the
system.                                                     The new capital rule not only raises required capital
                                                            levels but also emphasizes common equity, the form
We took a number of other important steps to                of capital that is best at absorbing losses. I was pleased
strengthen the system and build public confidence           that we were able to improve both the quantity and
and trust, including our work on an interagency basis       quality of capital, and were able to do so in a way that
to implement Dodd–Frank. Of particular importance           minimized the burden on smaller banks and thrifts.
were the Volcker rule, which was designed to prevent
banks from risking their capital on proprietary trading     In fact, as we crafted the capital rule, one of our
and hedge fund activities, and the risk-retention rule,     guiding principles involved the distinction between
which was intended to improve underwriting standards        large and small institutions. Community banks and
by preventing large Wall Street firms from securitizing     thrifts did not cause the financial crisis, and I wanted
pools of poorly underwritten loans.                         to ensure that they were not saddled with onerous new
                                                            requirements that would prove unnecessary and make
These were major projects that required a number of         it more difficult for them to serve their customers.
agencies, including the banking and securities industry
regulators, along with the Treasury Department, to          Thus, the final rule maintains the current treatment
work together in a productive and collegial way.            for residential mortgage exposures—an issue of great
We made great progress on each during the fiscal            importance to community institutions—and exempts
year covered by this Annual Report. In August, we           smaller banks and thrifts from some requirements
proposed a new version of the risk-retention rule           that were better suited to larger banks. In addition,
intended to align the qualified residential mortgage        smaller institutions will be subject to lower capital
exception with the Consumer Financial Protection            requirements than large banks and thrifts. In fact,
Bureau’s qualified mortgage rule, and accepted              in a separate rulemaking, we proposed doubling
comments through the end of October. And as I write         the leverage ratio for the nation’s largest financial
this article in December, we have just approved the         institutions.
final text of the Volcker rule. As important a milestone
                                                            We also recognized the burden that the final capital
as that is, the real work of implementing it now begins.
                                                            rule imposes, just by its issuance, on smaller
The OCC will be especially vigilant in our effort
                                                            institutions, and we took steps to ease that burden.
to establish a robust examination and enforcement
                                                            The proposed rule was divided into separate parts,
program that ensures our largest institutions will
                                                            so that community banks and thrifts would not
remain compliant with the Volcker rule. During 2014,
                                                            even have to read the advanced approaches section,
we will develop the necessary examination procedures
                                                            and the final rule was accompanied by a concise,
and training to provide our bank examiners with the
                                                            two-page guide that summarized the requirements
tools they need to do their job.
                                                            applicable to smaller institutions. We did not, by
Another major milestone was completion of our               any means, eliminate the burden entirely, but I hope
work on the domestic capital rule. Whatever else can        that community national banks and federal savings
be said about the causes of the financial crisis, the       associations will find compliance easier because of the
loss of confidence in the banking system occurred in        steps we did take.
part because market participants doubted that large
                                                            And let me be clear in saying that the success of
institutions held a sufficient amount of high-quality
                                                            community national banks and federal savings
capital to meet their obligations in times of stress. And
                                                            associations is important to the OCC. They represent
at the end of the day, the hundreds of community bank
                                                            the preponderant share of institutions we supervise,
failures that followed the financial crisis came about
                                                            and they provide vital services to millions of American
because they lacked capital of sufficient quantity and
                                                            families, businesses, and communities. I firmly believe
quality to weather the storm. The new capital rule will
                                                            that these smaller banks and thrifts are the lifeblood


	                                                                                    Comptroller’s Viewpoint	        5
of communities across the nation. When they succeed,                    With respect to our large banks, which play such
their communities prosper, and we have no more                          a vital role in financing the needs of our nation’s
important purpose at the OCC than to help ensure that                   economy, from the family seeking revolving credit
they continue to thrive.                                                or a mortgage loan to the very largest industrial
                                                                        organizations seeking credit to grow, we continued
With that in mind, we have designed a number of                         work on initiatives aimed at ensuring that they
programs and products specifically tailored to them.                    operate safely and soundly. In particular, we neared
For example, this year we published “A Common                           completion of efforts to incorporate our “heightened
Sense Approach to Community Banking,” a booklet                         expectations” program into Part 30 of our rules, which
that lays out the basic principles and approaches                       will make that program easier to enforce.
that we have found distinguish those banks that
prosper from those that merely survive—or worse,                        This program involves concrete, measurable objectives
that ultimately fail. We held dozens of workshops                       that will improve governance at our largest banks and
for community bank directors, on such topics as                         make them stronger as a result. It will raise standards
“Mastering the Basics” and credit risk, and our                         for audit, risk management, and controls, and it will
economics and accounting departments continued to                       ensure that independent directors are setting direction
publish papers analyzing a variety of economic and                      for their banks and serving as a credible challenge to
policy issues important to community banks. Our                         management.
BankNet Web site provides a number of services
to smaller institutions, including tools to help them                   We are asking a lot of these banks, but we are
stress test their commercial real estate portfolios or                  asking no less of ourselves. We are evaluating every
to compare their institution with a self-selected peer                  aspect of how we do our business through eight
group.                                                                  strategic initiatives covering everything from internal
                                                                        communication to bank supervision. The newest
Two other programs aimed at smaller institutions                        initiative in this program, which we refer to as our
got off the ground in 2013. First, the Mutual Savings                   “assessing” initiative, is intended to build an ongoing
Association Advisory Committee, which was                               process for self-assessment and improvement, and it
originally created by the Office of Thrift Supervision,                 will focus on continuous improvement of all our key
held its inaugural meeting as an OCC committee                          processes at the OCC.
in January. Second, we chartered a new Minority
Depository Institutions Advisory Committee and held                     The supervisory assessment process is structured very
the first meeting in March. I am confident that these                   much like a bank examination, and it is run by Larry
two committees will go a long way toward helping us                     L. Hattix, a seasoned examiner who now serves as
understand and address the unique issues facing these                   Senior Deputy Comptroller for Enterprise Governance
special classes of financial institutions.                              and Ombudsman. He reports to me, and his unit has
                                                                        considerable authority. If he finds a deficiency, he will
We produce a number of other important products                         issue an MRA—a “matter requiring attention,” similar
directed at community national banks and federal                        to what a bank receives if we find deficiencies in an
savings associations, but I have always believed                        examination—and these MRAs must be cured.
that the primary way we add value is through the
supervisory process. Our examiners are based around                     As part of our process of continuous improvement,
the country, near the community institutions they                       we put together a peer review study involving senior
supervise, and they know the local market as well                       regulators from three countries that showed great
as anyone. They have access to all the resources a                      resilience during the financial crisis: Australia, Canada,
nationwide organization can supply, and they are                        and Singapore. I was gratified by the willingness of
ready, willing, and able to provide counsel and                         our counterparts from abroad to work with us as well
technical assistance to all of the institutions we                      as the way our supervisory management and staff
supervise.                                                              have embraced this project. Honest self-evaluation is
                                                                        uncomfortable at best, and evaluation by outsiders,



6       Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
especially one’s peers, can be painful. So I think this   nears the end of its observance of its first 150 years of
initiative is extraordinary, and it speaks volumes        service to the United States, I feel confident that the
about the professionalism of OCC staff and the high       processes we have put in place throughout the agency
standards they set for themselves that so many are        will assure us of success well into our next century and
willing to do everything possible to assess their         a half.
weaknesses as well as their strengths, and to learn
from past mistakes while building on our successes.

In the final analysis, even the best organizations must
embrace change. Either they commit themselves to                                               Thomas J. Curry
continuous improvement or they atrophy. As the OCC                                   Comptroller of the Currency




	                                                                                  Comptroller’s Viewpoint        7
Section One
Year in Review

The recovery of the U.S. economy and the federal
banking system continued in fiscal year (FY) 2013.
Stronger capital, moderate loan growth, and better
loan performance reflected the industry’s improving
health. However, economic uncertainty at home and
abroad, stubbornly high unemployment, and earnings
compression associated with historically low interest
rates represent significant challenges going forward.

Public trust in the banking system has been slower
to recover. During the period covered by this Annual
Report, the OCC used its extensive enforcement
powers to ensure that the institutions it supervises                  President Obama meets with his economic team in August to
maintain high standards of management competence                      discuss implementation of Dodd–Frank. Comptroller Curry sits at
                                                                      the far end of the table.
and regulatory compliance. Avoiding the operational
errors of the past is crucial to the banking industry’s               Treasury Department’s Targeted Investment Program,
ability to innovate and grow.                                         and many other institutions received support from
In 2013—the 150th anniversary of the OCC’s                            other government programs aimed at restoring
founding—the agency was reminded of its roots                         liquidity and financial stability.
in American history and the values of integrity,                      One of the most important lessons of the crisis,
professionalism, independence, and teamwork that                      therefore, was that both the quantity and the quality
have long set the agency apart. In this anniversary                   of bank capital had to be improved. The Basel
year, the OCC recommitted itself to those values,                     Committee on Banking Supervision, an international
not just as abstractions, but as an essential part of                 body of bank supervisors, provided a unified global
everything we do.                                                     response to this challenge. Beginning in 2010, the
Capital                                                               Basel Committee released a series of revisions
                                                                      (referred to as Basel III) to its original capital
The financial crisis was triggered by failures of                     regulations. Basel III raised the capital charge
confidence and liquidity, as financial institutions,                  against risk-weighted assets and established a capital
especially the largest ones, experienced difficulty                   conservation buffer, which required banks to limit
meeting their obligations due to a breakdown of the                   their dividend and bonus payouts the closer they came
funding markets. On a more fundamental level, the                     to their mandatory minimum capital.3 Basel III also
crisis reflected a misalignment of risk and capital—too               introduced an international leverage ratio that applies
much of the first and too little of the second. As asset
values crumbled in 2008, two systemically important                   3
                                                                        Basel III also established international liquidity standards that incorporate
                                                                      explicit liquidity coverage and funding ratios that are designed to promote
institutions received capital assistance through the                  the short-term and long-term resilience of large banking organizations’
                                                                      liquidity.


8	      Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
    The OCC Marks 150 Years of Service
    to the American People
    The national banking
    legislation of the Civil War
    era demonstrated the federal
    government’s strengthened
    commitment to supporting
    economic growth. The laws
    also affirmed an optimistic
    view of America’s future. The
    system’s founders foresaw
    a nation of people freely
    exchanging goods from their
    farms and factories across
    local and state borders,
    drawing on one another’s
    productive strengths to create
    a common prosperity. They
    knew this required a robust
    financial system, including a
    uniform currency and banks
    capable of serving customers
    wherever they lived, worked,
    and traveled. The founders,
    however, also acted to                 Comptroller Curry, with OCC staff, honors the OCC’s 150th anniversary by ringing the
    preserve the local character,          opening bell at the New York Stock Exchange.
    ownership, and management
    of national banks. That effort succeeded: Most of the              The banking laws made the OCC the first federal
    national banks and federal savings associations that               regulatory agency to have operational independence,
    the OCC charters and supervises today are community                which Congress believed was necessary to oversee the
    institutions, providing financial services to meet local           national banking system in a professional, nonpartisan
    customers’ needs.                                                  manner. Congress also gave the agency independent
                                                                       funding authority outside the budget appropriations
                                                                       process, and since then the OCC has drawn nearly all
                                                                       of its operating income from bank assessments and
                                                                       fees.
      “The OCC has a long heritage                                  The OCC’s 150th year was an opportunity for
      of public service, regulating and                             employees to reflect on the agency’s past and gain
      supervising national banks and                                insight regarding its future. The agency invited outside
                                                                    experts to discuss the history of banking and banking
      now federal savings associations.                             supervision, while district offices highlighted key people
      I am especially proud to lead                                 and events in the OCC’s past.
      the agency as it achieves this                                The anniversary was also an opportunity to remind the
      milestone in its distinguished                                public about the important role banks play in fueling
      history.”                                                     the nation’s economy. The OCC created public service
                                                                    announcements that noted President Lincoln’s support
      Thomas J. Curry,                                              for a strong system of national banks and supervisory
      30th Comptroller of the Currency,                             oversight, and the agency added a commemorative
      on the agency’s 150th birthday                                presentation to its Web site, “History: 150 Years of the
                                                                    OCC.” The presentation includes a multimedia timeline
                                                                    and profiles of national banks and federal savings
                                                                    associations, focusing on challenges the banks faced in
                                                                    fulfilling the responsibilities of their federal charters.




	                                                                                           Section One: Year in Review	          9
                                                       THEN AND NOW
     BANK CAPITAL IN HISTORICAL PERSPECTIVE
     The founders of the national banking system considered capital adequacy a critical issue. The
     shortage—or absence—of capital had been a key reason for the instability of the pre-Civil War
     banking systems controlled by the states. The new laws remedied this by requiring that banks in
     cities with populations exceeding 50,000 be able to produce at least $200,000 in capital, with lower
     requirements for banks in smaller cities and towns.



a simple unweighted charge against assets and certain                         systemically important banking institutions and less
off-balance-sheet exposures. Because it incorporates                          so to community banks. That did not change the fact
off-balance-sheet exposures, the Basel III leverage                           that hundreds of community banks had failed during
ratio exceeds the leverage ratio that applied to all                          the crisis, or that many others avoided that fate only
U.S. depository institutions.                                                 because they maintained capital in excess of regulatory
                                                                              requirements. Community banks and large banks alike
Capital enhancement was also among the foremost                               needed strong capital, and the NPRs reflected that fact.5
objectives of Dodd–Frank, which enacted a new
regulatory regime for U.S. financial institutions. In                         The OCC weighs the potential benefits of all
this regard, the intentions of Dodd–Frank and Basel III                       regulations against the burdens they may cause,
were the same: to improve the quantity and quality                            especially for community banks. So, after careful
of capital held by financial institutions. For example,                       consideration of public comments, in July the OCC,
Dodd–Frank, like Basel III, emphasized the quality                            the Federal Reserve Board, and the FDIC adopted
of capital by restricting the inclusion of lesser, hybrid                     a revised rule that addressed the major concerns
instruments like trust preferred securities (TRUPS)                           expressed by community banks and provided a
in capital calculations for larger banks. Moreover,                           blueprint for a better-capitalized banking system
Dodd–Frank required bank holding companies to meet                            overall. Specifically, the agencies elected not to adopt
the same type of capital requirements as depository                           a change that would have required banks to increase
institutions, and to serve as a “source of strength” for                      capital held against residential mortgages, and chose to
their depository institution subsidiaries.                                    give community banks a one-time election to exclude
                                                                              from their capital calculations the effects of unrealized
While Dodd–Frank and Basel III had common                                     securities gains and losses on available-for-sale debt
objectives, they differed in many details. The OCC, the                       securities. Banks with less than $15 billion in assets
Federal Reserve Board, and the FDIC were responsible                          will be permitted to continue to count TRUPS issued
for reconciling these differences for U.S. financial                          before May 19, 2010, as tier 1 capital. The OCC also
institutions. After considering comments from banks                           published a reference guide to help smaller banks
and other stakeholders, the agencies released three                           understand the new rules and their likely impact.6
separate notices of proposed rulemaking (NPR) in
June 2012 to implement the Basel III minimum capital                          For the largest banks, the rule includes a
requirements.4                                                                countercyclical capital buffer, a new minimum
                                                                              3 percent supplementary leverage ratio that takes
By releasing the three NPRs individually, the agencies                        into account off-balance-sheet exposures, and
underscored their differentiated approaches: Although                         additional capital charges and standards for derivatives
more would be expected of all U.S. banks in terms of                          exposures. The rule also introduces enhanced
minimum capital requirements, the new rules would
apply primarily to the largest, most complex, and most                        5
                                                                               Remarks by Thomas J. Curry, Comptroller of the Currency, American
                                                                              Bankers Association, October 15, 2012.
4
 OCC, Annual Report Fiscal Year 2012, p. 19. Unless otherwise noted,
all documents cited in this report can be found on the “About the OCC,”       6
                                                                               OCC, “New Capital Rule Quick Reference Guide for Community Banks,”
“News and Issuances,” or “Publications” pages at www.occ.gov.                 July 2013.


10         Office of the Comptroller of the Currency      |   Annual Report Fiscal Year 2013
                                          THEN AND NOW
    SUPERVISION BY RISK IN HISTORICAL PERSPECTIVE
    Two important steps in the evolution of the OCC’s approach to bank supervision occurred in the
    later decades of the twentieth century. The first was in 1979, when the agency, through the Federal
    Financial Institutions Examination Council (FFIEC), adopted a uniform ratings system for federally
    regulated banks, which took its name from the acronym for its component parts, CAMEL. CAMEL
    identified five distinct categories of risk: capital, asset quality, management, earnings, and liquidity.
    In 1996, the system became known as CAMELS when sensitivity to market risk was added to the
    list.

    In the 1990s, the OCC formalized a system of risk-based supervision that explicitly ties OCC
    oversight to the type and degree of risk presented by each national bank. Supervision by risk is
    focused on evaluating risk, identifying material and emerging problems, and ensuring that individual
    banks take corrective action before problems compromise their safety and soundness. Supervision
    by risk is dynamic, responsive to changing risks at individual institutions, and sensitive to evolving
    market conditions and regulatory changes. It reflects the unique characteristics of each bank.

    The founders of the national banking system and the agency’s leadership understood that capital—
    the “C” in CAMELS—was not only an essential buffer against loss but also an affirmation of
    financial responsibility on the part of bank ownership. That holds true today.

    The founders understood that banking was a business built on the fundamentals of deposit taking
    and loan making, and that a banker’s skill in evaluating the potential borrower’s capacity to repay,
    the quality of the customer’s collateral, and, therefore, the terms of the loan was integral to the
    bank’s success.

    The founders recognized that banks must have sufficient liquid reserves to meet customers’ needs
    for cash and to redeem the banks’ obligations, which included the national currency they dispensed
    as part of the nation’s money supply until 1935.

    Through the years, examiners have understood that management—the “M” in CAMELS—is
    the glue that holds a bank together. What today’s bank supervisors refer to as enterprise risk and
    operational risk are subsets of management’s ability to manage risk across the entire organization;
    ensure the competency and honesty of bank personnel; properly use and safeguard proprietary
    information and the systems that process it; comply with applicable laws and regulations; and
    provide for a bank’s future through leadership development and strategic planning.



disclosure requirements applicable to the top-tier         “With these new capital rules,” said Comptroller
entity in a banking organization that is domiciled         Curry, “the federal banking agencies are taking an
in the United States and has $50 billion or more in        important step to strengthen the banking system,”
total assets. At the same time, the OCC, the Federal       improving the quality and quantity of capital and
Reserve Board, and the FDIC issued a joint NPR that        minimizing the burden on community banks and
would add a 6 percent supplementary leverage ratio to      federal savings associations.7
the “well-capitalized” capital category of the prompt
corrective action regulations for large, interconnected
U.S. banks.
                                                           7
                                                            OCC, “OCC Approves Final Rule on Regulatory Capital; Proposes
                                                           Doubling Leverage Ratio for the Largest Banks,” news release 2013-110,
                                                           July 9, 2013.


	                                                                                     Section One: Year in Review               11
                                                      THEN AND NOW

     LIQUIDITY IN HISTORICAL PERSPECTIVE
     Before the Civil War, most banks that failed did so for one major reason: They lacked the cash
     needed to redeem their notes and repay depositors. In that sense, every creditor represented a threat
     to a bank’s solvency. Some insolvent banks relocated, hoping creditors would give up trying to collect.

     To protect the public, the authors of the banking acts required big-city national banks to hold in their
     vaults assets equal to at least 25 percent of the value of their obligations. In addition, the law required
     all banks to purchase U.S. government bonds as a backstop, exclusively for redeeming notes. National
     banks thus had not one but two layers of liquidity—liquidity that proved effective in maintaining
     public confidence in national bank currency and the issuing banks.



The OCC’s Commitment to                                                   new tools designed to help community banks better
Community Banking                                                         understand the risks they face.

Community banks constitute the overwhelming                               Among those tools is “A Common Sense Approach
majority of the institutions under the OCC’s                              to Community Banking,” in which the agency
supervision. These institutions                                                               summarizes best practices for
are crucial to the stability of the                                                           successful bank management.
communities that depend on them.                                                              The publication focuses on
                                                                                              three underlying concepts:
Like all banks, community banks                                                               accurately identifying and
have had to work harder for                                                                   appropriately monitoring and
earnings in the slow-growth, low                                                              managing risk; mapping out a
interest rate environment that                                                                vision and business plan that is
followed the financial crisis of                                                              communicated throughout the
2008. Community banks’ fortunes                                                               institution; and understanding the
are especially tied to the small                                                              OCC’s supervisory process.
business community, which has been slower to recover
from the recession. The new rules prompted by Dodd–                       While community banks face many common
Frank have posed extra challenges for community                           challenges, they can be as different from one another
banks, which often lack the specialized staff available                   as they are from banks a hundred times their size.
at larger banks to facilitate transition to those rules.8                 The OCC recognizes and supports this diversity
The law and the agencies’ rulemakings recognized this                     by adapting its supervisory approach to the unique
by providing special provisions for community banks,                      circumstances of community banks’ location, business
including extended implementation schedules and                           model, market, and ownership.
exemptions from rules that did not apply to them.
                                                                          Two types of community banks continued to receive
Recognizing the challenges that community banks                           special attention from the OCC in 2013. Under Title
face, the OCC provided summaries of the new                               III of Dodd–Frank, the OCC acquired supervisory
regulations and conducted dozens of outreach and                          responsibility from the former OTS for federal savings
training sessions to ensure that community bank                           associations, including mutual savings associations.
directors and managers understood what was expected                       One way that the OCC fulfills that responsibility is
of them. The agency also produced and distributed                         through the Mutual Savings Association Advisory
                                                                          Committee, which provides information and advice to
8
 Remarks by Thomas J. Curry, Independent Community Bankers of             the OCC on conditions in that sector of the banking
America, March 14, 2013.


12        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
system and on regulatory changes that support the
health and viability of those associations.

The committee, composed of chief executive officers
of mutual savings associations of all types, sizes,
operating strategies, and geographic areas, held its first
meeting under OCC auspices in January.9

Minority-owned depository institutions (MDI) also
face special challenges. They are often the lifeblood of
communities that may have few other banking options.
They are key sources of depository services and credit
to consumers and small business, which is why the law                                                                 Photo courtesy of Operation HOPE
requires the federal banking agencies to provide these                      Comptroller Curry visits the Martin Luther King Jr. National Historic
                                                                            Site in Atlanta, Ga.
institutions with special support.

In 2013, the OCC established a Minority Depository
Institutions Advisory Committee and hosted the                              a mathematical formula or wholly quantitative criteria.
first meeting under its auspices in March. The                              The regulatory minimum capital ratios are standards
committee brings together senior OCC officials and                          that address only a subset of the risks faced by banks.
representatives of minority-owned banks from around                         The OCC expects banks to maintain capital well above
the country. The meeting included representatives                           regulatory minimum capital ratios, especially during
from the U.S. Small Business Administration and the                         expansionary periods when, although the economy is
Treasury Department’s Community Development                                 growing robustly and bank earnings are strong, the
Financial Institutions Fund to discuss opportunities                        inherent risks in a bank’s operations and balance sheet
for productive partnerships and for leveraging federal                      may be increasing.12
assistance.10
                                                                            Section 165(i) of Dodd–Frank recognized the need
MDIs often encounter difficulties raising capital, in                       to assess how a bank’s risks may be amplified in
part because they are required to limit capital from                        adverse markets or financial conditions, as occurred
non-minority sources to preserve their minority status.                     during the financial crisis. This section of Dodd–Frank
In June, the OCC revised its policy statement on MDIs                       required all federally regulated financial institutions
to give the agency the discretion to continue to treat                      with assets above $10 billion to conduct an annual
institutions as MDIs even when the non-minority                             company-run stress test, evaluating the sufficiency of
investment ownership share exceeds 50 percent. The                          a bank’s financial resources and identifying material
OCC believes this policy gives MDIs access to new                           vulnerabilities under various financial scenarios.
capital, thereby contributing to greater economic                           Dodd–Frank further required the primary regulators
opportunities in the communities they serve.11                              of financial institutions subject to the stress testing
                                                                            requirement to issue “consistent and comparable”
Stress Testing                                                              regulations that implement the requirements, define
                                                                            the methods for stress testing, and set standards for the
An individual bank’s appropriate level of capital
                                                                            reporting and publication of each institution’s stress
cannot be determined solely through the application of
                                                                            test results.13
9
 OCC, “OCC Hosts Mutual Savings Association Advisory Committee
Meeting,” news release 2013-80, May 6, 2013.                                The OCC issued the final stress test rule on October
10
  OCC, “OCC Renews Minority Depository Institutions Advisory                9, 2012. The annual stress test rule applies to banks
Committee, Will Host Inaugural Meeting on March 5,” news release            with more than $10 billion in assets. The rule required
2013-16, January 25, 2013; remarks by Thomas J. Curry, 2013 Interagency
Minority Depository Institutions and CDFI Bank Conference, June 11,         institutions with $50 billion or more in assets to
2013.
                                                                            12
                                                                              OCC, “Guidance for Evaluating Capital Planning and Adequacy,”
11
  OCC, “Policy Statement on Minority National Banks and Federal             bulletin 2012-16, June 7, 2012.
Savings Associations,” June 7, 2013. See also remarks by Thomas J. Curry,
National Bankers Association, October 3, 2013.                              13
                                                                                 OCC, Annual Report Fiscal Year 2012, p. 21.


	                                                                                                        Section One: Year in Review               13
                                                      THEN AND NOW

     ASSET QUALITY IN HISTORICAL PERSPECTIVE
     One of the thorniest problems for bankers and bank supervisors, past and present, is balancing risk
     and reward in banks’ lending and investment practices. Too much risk and a bank’s solvency may be
     threatened. Too little risk and good business opportunities may be left on the table.

     The founders of the national banking system believed that in lending, as in other bank activities,
     safety took precedence over profits. The national banking laws and regulations reflected that
     conviction. Comptroller McCulloch’s circular letter to bankers in 1863 instructed them to make
     only well-collateralized, short-term commercial loans, and to avoid all others. He insisted that loans
     be distributed among borrowers and types of businesses: Large loans to a single individual or firm,
     he concluded, were “injudicious,” and should be discouraged. In their oversight of national banks,
     McCulloch’s examiners did just that. This regulatory rigor helped build confidence in the U.S.
     financial system.



conduct an annual stress test beginning in fall                            training, and insight. The OCC strives to effectively
2012. Pursuant to the rule, in November 2012, the                          use all of the tools at its disposal in the effort to
OCC released macroeconomic stress test scenarios,                          maintain a safe and sound banking system and a strong
and institutions with $50 billion or more in assets                        economy.15
conducted stress tests using these scenarios and
submitted results to the OCC in January. Institutions                      Assessing Asset Quality
with between $10 billion and $50 billion in assets were
                                                                           One of the fundamental purposes of banks is to recycle
required to begin conducting annual stress tests in
                                                                           funds received as deposits into loans. How those loans
fall 2013.
                                                                           perform often determines the health of the banks.
The OCC recognizes that community banks do not                             Thus, assessment of credit quality has always been at
need the types of sophisticated stress testing regimes                     the heart of bank supervision.
required for larger institutions. The fundamental
                                                                           Credit risk was a key focus of the OCC’s Semiannual
concepts of stress testing and “what if” analyses,
                                                                           Risk Perspective reports, which synthesize economic
however, can be valuable to banks irrespective of size.
                                                                           data, bank-supplied information, and examiner
The OCC provided guidance to community banks
                                                                           findings. The reports are a product of the agency’s
(under $10 billion) on how they could gain the benefits
                                                                           National Risk Committee (NRC), an interdisciplinary
of stress testing without using sophisticated analysis
                                                                           group that monitors and reports on risk trends and
or outside consultants. On its BankNet Web site, the
                                                                           issues guidance to examiners.16
OCC offers a tool that smaller institutions can use to
perform portfolio analysis of their commercial real                        The spring 2013 report showed that credit quality
estate loans.14                                                            generally improved in 2013. Nonperforming loans—
                                                                           those 90 days or more past due—declined for large
The stress testing regime now being adopted is vital
                                                                           and small banks. Fewer loans had to be charged off,
to maintaining the health and stability of the banking
                                                                           enabling banks to redeploy resources that would
system. But stress tests, like any analytic or predictive
                                                                           otherwise have gone into reserves to cover loan losses.
tool, are no substitute for examiner experience,
14
  OCC, “OCC Announces New Stress Testing Guidance and Commercial
Real Estate Stress Test Tool for National Community Banks and Federal      15
                                                                             Remarks by Thomas J. Curry, Financial Services Roundtable, September
Savings Institutions,” news release 2012-146, October 18, 2012; OCC,       20, 2012.
“Community Bank Stress Testing: Supervisory Guidance,” bulletin 2012-
33, October 18, 2012.                                                      16
                                                                                OCC, Semiannual Risk Perspective, fall 2012 and spring 2013.


14        Office of the Comptroller of the Currency    |   Annual Report Fiscal Year 2013
The NRC report also pointed to worrisome signs.
Loan demand was up less than one would expect in
the normal life cycle of economic recoveries, and the
demand came primarily from larger rather than smaller
borrowers. With diminished profitability, banks tended
to take on more risk in search of customers, using less
demanding credit underwriting standards, more lenient
loan terms, and weaker risk-based pricing, which lead
to increased credit risk.

Mortgage Lending
                                                          Associate National Bank Examiner Timothy Boyle and examination
                               Mortgage lending is        technician Altrese Steaman review OCC policies on mortgage
                               another key barometer      lending.
                               of the health of banks,
                               consumers, and the         loans, raising questions about the sustainability of the
                               general economy. In        housing recovery.18
                               2013, there were both
                               positive and negative      One of Dodd–Frank’s central objectives was to curb
                               trends. The performance    abuses in mortgage lending that helped bring on
                               of first mortgages         the financial crisis. The act required the Consumer
                               continued to show          Financial Protection Bureau (CFPB), after consulting
                               signs of improvement.      with other federal agencies, to adopt rules on mortgage
                               The OCC Mortgage           servicing, mortgage disclosures, and the compensation
Metrics Report, which tracks the performance of           of mortgage loan originators. Dodd–Frank drastically
roughly 52 percent of all U.S. mortgages outstanding,     reduced the role of credit rating agencies, whose
showed that 90.6 percent of mortgages were current,       ratings helped drive demand for subprime mortgage-
compared with 90.2 percent in the previous quarter        backed securities.
and 88.7 percent a year earlier. Seriously delinquent     Dodd–Frank also established stricter requirements
mortgages—those 60 or more days past due—fell             for higher-risk mortgages to ensure that appraisals
to 3.8 percent of all mortgages, compared with            reflect legitimate changes in the market value of
4.4 percent a year earlier.17 House prices stabilized     those residential properties. For example, a final
in many markets, erasing negative equity for some         rule was adopted in January 2013 that implemented
homeowners, making consumers feel more confident          an amendment to the Truth in Lending Act’s
about their economic prospects and, therefore, making     Regulation Z, requiring the OCC and the other federal
them more likely to borrow and spend.                     regulators to issue a regulation containing specific
The outlook for some segments of the mortgage             appraisal requirements for higher-risk mortgage
market is cloudier. After a detailed review, OCC          loans. Before a creditor extends credit in the form of
examiners found rising risk of default on home equity     a higher-risk loan, the creditor must obtain a written
loans contracted before the financial crisis. Many        appraisal performed by a licensed or certified appraiser
of these loans had interest-only features, so that        that includes a physical inspection of the property’s
borrowers now confront the prospect of substantial        interior and is carried out in compliance with the
negative equity and higher monthly payments.              Uniform Standards of Professional Appraisal Practice.
Rising interest rates—which make refinancing more         The final rule also requires a second appraisal from
expensive—compound the risk that banks will have          a different appraiser if the higher-risk mortgage loan
difficulty collecting these debts. The increase in        finances the purchase of a property from a seller who
interest rates has also dampened demand for mortgage
                                                          18
                                                            Remarks by Darrin Benhart, Deputy Comptroller for Credit and Market
                                                          Risk, Mortgage Bankers Association’s Risk Management and Quality
17
     OCC Mortgage Metrics Report, second quarter 2013.    Assurance Forum, September 11, 2013.


	                                                                                   Section One: Year in Review               15
acquired the property for a lower price during the                         20 percent down payment, of the opportunity to own
six months prior to the sale. The final rule contains                      their own homes.21
several exemptions from the requirements, including
the statutory exemption for qualified mortgages. A                         After reviewing these comments, in 2013 the OCC
supplemental final rule issued in December 2013                            and other federal agencies revised their 2011 proposal
includes exemptions that apply to small-dollar loans,                      to set the requirements for the QRM exemption to
manufactured housing, and streamlined refinance                            be co-extensive with the qualified mortgage (QM)
transactions.19                                                            safe harbor established by the CFPB. The proposal
                                                                           also sought comment on whether an alternative that
Mortgages and Risk Retention                                               would incorporate additional factors in QRMs, such as
                                                                           borrower credit history and a 70 percent loan-to-value
Dodd–Frank’s section 941 required regulators to
                                                                           cap, would promote a more vibrant market for loans
ensure that firms bundling mortgage and other loans
                                                                           that do not conform to the QM standard.22
into asset-backed securities (ABS) retain some of the
risk built into the instruments they market, giving them                   Allowance for Loan and Lease Losses
a direct stake in the performance of the underlying
loans and better aligning the interests of those who                       Some of the improvement in asset quality since the
create and market ABS with those of investors,                             economic recovery was reflected in banks’ bottom
lenders, and borrowers.                                                    lines, as declining loan losses permitted banks to
                                                                           reduce the reserves they are required to maintain
The first of the regulatory agencies’ section 941                          to cover those losses. The pace of allowance
proposals, which was released for comment early in                         reductions, however, exceeded the rate at which
2011, called for the firms that securitize mortgages to                    banks were charging off loans, leaving them less
retain 5 percent of the par value of mortgage-backed                       prepared if economic shock or risks embedded in
securities. It stipulated that qualified residential                       loan portfolios caused losses to spike. A potential
mortgages (QRM) would be exempt from the risk-                             for repayment problems in home equity lending, the
retention requirement. The agencies’ proposal defined                      sluggish economic recovery at home and abroad,
QRMs as first-lien mortgage loans that were based on                       and the reported weakening of credit underwriting
sound appraisals and met standards for documentation                       standards are also sources of risk that could hurt loan
of the potential borrower’s income, credit history,                        performance and strain the adequacy of reserves.
and ability to repay. The loans also met standards for
minimum down payments and maximum loan-to-value                            The OCC highlighted its concerns about loan-loss
ratios. These provisions were intended to make QRMs                        reserves in a series of outreach efforts that included
less likely to go into default.20                                          meetings with bankers and their auditors and speeches
                                                                           by senior agency officials, including Comptroller
A concern frequently expressed in the more than                            Curry. The OCC also extended its support in principle
10,000 comments received by the agencies was that to                       to an initiative of the Financial Accounting Standards
avoid the risk-retention requirement, lenders would be                     Board (FASB) to replace the current method for
less willing to make non-qualifying loans. If that were                    determining reserves, which relies heavily on past
to happen, it could deprive borrowers unable to meet                       performance. The proposed, more forward-looking
the stringent QRM standards, such as the minimum                           approach would require banks to use historical
                                                                           information, current conditions, and reasonable and
                                                                           supportable forecasts to estimate expected shortfalls
                                                                           over the life of a loan. The OCC asked the FASB
                                                                           to consider providing relief in the form of reduced
19
  OCC, “Agencies Issue Final Rule on Appraisals for Higher-Priced          disclosure requirements and extended implementation
Mortgage Loans,” news release 2013-11, January 18, 2013; OCC,
“Agencies Issue Proposed Rule to Exempt Subset of Higher-Priced
Mortgage Loans From Appraisal Requirements,” news release 2013-111,
July 10, 2013.                                                              Testimony of Thomas J. Curry, Committee on Banking, Housing, and
                                                                           21

                                                                           Urban Affairs, U.S. Senate, February 14, 2013.
20
  OCC, “Agencies Seek Comment on Risk Retention Proposal,” news
release 2011-39, March 31, 2011; OCC, Annual Report Fiscal Year 2011,      22
                                                                             OCC, “Agencies Request Comment on Proposed Risk Retention Rule,”
pp. 10–22.                                                                 news release 2013-128, August 28, 2013.


16        Office of the Comptroller of the Currency    |   Annual Report Fiscal Year 2013
                                                     THEN AND NOW

     BANK MANAGEMENT IN HISTORICAL PERSPECTIVE
     Some of Comptroller McCulloch’s most important decisions concerned the issuance of national bank
     charters—in particular, how many should be issued and to whom. It was clear to him that when banks
     competed too aggressively for business, banking standards suffered. Therefore, McCulloch adopted the
     policy of chartering only as many banks in a given community as he believed the local economy could
     support.

     That policy sometimes meant having to choose between competing charter applicants—typically,
     existing state banks wishing to convert to national charters or newcomers seeking to establish
     themselves in the banking business. Politics argued clearly for giving preference to the newcomers:
     Most state bankers had opposed the creation of the national system and so, some argued, had no claim
     to its privileges. But McCulloch repeatedly chose experience over expediency. What the new national
     system needed most, he saw, were managerial skills and business credibility that only professional
     bankers could bring. Ever since, the OCC has embraced the principle that knowledgeable, responsible
     management is crucial to the safety and soundness of the banking system.



schedules for community banks, to ease their transition                  was designed to assist community banks in identifying
to the new system.23                                                     and assessing such concentrations.

Asset Concentrations and Lending Limits                                  In general, the OCC’s lending limits rule imposes
                                                                         specified limits on loans and extensions of credit to
In April 2013, economists from the OCC and the
                                                                         a single borrower and groups of related borrowers.
Federal Reserve Board published a study that looked
                                                                         Section 610 of Dodd–Frank expanded the definition
back at the agencies’ 2006 supervisory guidance
                                                                         of loans and extensions of credit to include certain
on commercial real estate concentrations. The
                                                                         derivative instruments, repurchase agreements,
authors sought to better understand the effect of
                                                                         reverse repurchase agreements, and securities lending
such concentrations on bank performance during
                                                                         or borrowing transactions. The goal of the revised
the financial crisis and the recession that followed
                                                                         definition was to prevent depository institutions from
it, and, by implication, to test whether the agencies’
                                                                         making large bets on over-the-counter derivatives that
guidance effectively encouraged banks to reduce
                                                                         could endanger their capital and viability.25
their commercial real estate concentrations. The
economists found a direct correlation between those                      In August 2013, the OCC issued a final rule to
concentrations and the deterioration and failure of                      implement section 610, which went into effect on
banks that continued to exceed the recommendations.                      October 1, 2013. The rule minimizes the compliance
To the authors, the lesson was clear: Concentration                      burden on small and midsize banks by giving them
limits, whether on specific types of loans or to specific                alternatives for measuring the credit exposure inherent
borrowers, are essential to preserving bank safety and                   in derivative transactions and securities financing
soundness.24 The aforementioned stress testing tool                      transactions. The options permit banks to adopt
that the OCC makes available on its BankNet Web site                     compliance alternatives that fit their size and risk
                                                                         management requirements, consistent with safety and
23
  Remarks by Thomas J. Curry, Risk Management Association’s Annual       soundness and the Dodd–Frank goals.26
Risk Management Conference, October 29, 2012; remarks by Thomas J.
Curry, AICPA Banking Conference, September 16, 2013.
                                                                         25
                                                                              OCC, Annual Report Fiscal Year 2012, p. 21.
24
  Keith Friend, Harry Glenos, and Joseph B. Nichols, OCC, “An Analysis
of the Impact of the Commercial Real Estate Concentration Guidance,”     26
                                                                           OCC, “OCC Issues Final Rule on Lending Limits,” news release 2013-
April 2013.                                                              102, June 20, 2013.


	                                                                                                      Section One: Year in Review          17
                                                                          and reputation, for the implicated institutions and the
                                                                          industry at large, were considerable.

                                                                          Independent Foreclosure Review
                                                                          Agreement
                                                                          In April 2011, the OCC, the Federal Reserve Board,
                                                                          and the OTS imposed sweeping enforcement actions
                                                                          against 14 large mortgage servicers for unsafe and
                                                                          unsound mortgage servicing and foreclosure practices
                                                                          in 2009 and 2010.

                                                                          The consent orders had two goals. The first was to fix
                                                                          systemic deficiencies and put standards in place to
                                                                          ensure that future borrowers would be treated fairly
                                                                          and accorded all the protections they were entitled
Comptroller Curry discusses foreclosure alleviation and other issues
with Representative Maxine Waters (D-Calif.), ranking member of           to under the law. The consent orders delineated 97
the U.S. House Committee on Financial Services.                           corrective actions to reform the companies’ servicing
                                                                          and foreclosure standards and practices. Specifically,
Assessing Operational Risk                                                the orders required the servicing companies to
                                                                          tighten oversight and management of third-party
As financial risks have receded, operational risk—the                     service providers, and strengthen their custodial
risk of loss due to failures of systems, processes, and                   responsibilities for mortgage records, management
people, and to external events—continues to rise. The                     information systems, risk assessment and management,
OCC took steps throughout 2013 to ensure that banks                       and compliance oversight. Servicers also were directed
are able to recognize and mitigate those risks.                           to improve communication with borrowers, in part by
A number of high-profile enforcement actions in 2013                      establishing single points of contact for foreclosure
drove home the importance of strong operational risk                      cases. The servicers were further required to develop
management. Several of the country’s best-known                           effective training programs for customer support staff
financial institutions were subject to enforcement                        and establish controls to prevent foreclosures from
actions and CMPs for past operational failures. The                       proceeding when a borrower has been approved for a
OCC and the Federal Reserve Board amended consent                         modification on a trial or permanent basis.27
orders with the largest mortgage loan servicers,                          The second goal of the banking agencies’ enforcement
requiring the servicers to pay $9.3 billion—the largest                   orders was to establish an Independent Foreclosure
federal financial settlement action in history. After                     Review to identify those who were harmed by
absorbing more than $6 billion in losses stemming                         the servicers’ practices and provide appropriate
from failures in governance and management oversight                      compensation for their injuries. The orders stipulated
in its derivatives trading activities, JPMorgan Chase                     that the banks hire independent consultants who would
was assessed a CMP of $300 million by the OCC                             operate under the regulators’ oversight to conduct an
and $600 million by other banking agencies in the                         independent review of these companies’ mortgage
United States and the United Kingdom, plus $389                           servicing activities in 2009 and 2010.
million more in fines and remediation for unfair
credit card billing practices. In December 2012, the                      After more than a year of effort and no remediation
OCC, in coordination with the U.S. Department of                          to borrowers, the Comptroller recognized the need to
Justice and other agencies, assessed a $500 million                       change direction to focus on assisting homeowners
CMP against HSBC Bank USA for Bank Secrecy Act                            more quickly.
violations. The OCC assessed penalties against other
banks to correct deficiencies associated with failures                    On January 7, 2013, the OCC and the Federal Reserve
in compliance and operations. In addition to the                          Board announced an agreement, involving 10 of the
financial costs of these lapses, the losses in credibility                27
                                                                               OCC, Annual Report Fiscal Year 2012, pp. 14–15.


18        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
14 mortgage servicing companies28 covered by the                              failure to make necessary hardware and software
original enforcement actions, that effectively ended                          upgrades; and management inattention. Recession-
the Independent Foreclosure Review process for those                          related cost cutting affected many information
banks. Instead, servicers had to provide $3.3 billion in                      technology departments, leading managers to
direct payments to eligible borrowers and $5.2 billion                        outsource more of that work to third parties in the
in other assistance, such as loan modifications and                           hope of realizing savings. The OCC recognizes
forgiveness of default judgments. Amended consent                             that outsourcing makes sense for many banks—it
orders published in February codified the agreement.                          may be the only economically feasible course for
Under the revised orders, more than 4.2 million                               some community banks—but emphasizes that banks
eligible borrowers would receive compensation                                 remain wholly responsible for any compliance and
ranging from hundreds of dollars up to $125,000,                              quality control issues that arise from their third-party
depending on the type of servicer error.29                                    relationships.

“We have learned a great deal from the reviews that                           In 2013, banks saw a particular increase in denial-
have been conducted to date,” said Comptroller Curry                          of-service attacks, in which computer servers are
in announcing the new program. “However, it has                               deliberately overwhelmed with incoming traffic to
become clear that carrying the process through to                             disrupt communications with customers and business
its conclusion would divert money away from the                               systems. These attacks were a reminder of the need
impacted homeowners and also needlessly delay the                             for constant vigilance to ensure that bank management
dispensation of compensation to affected borrowers.”                          addresses vulnerabilities and maintains bank systems
He said he was confident that the new course of action                        in the highest state of readiness to thwart future attacks.
would “get more money to more people more quickly”
and promote healing of the nation’s housing markets.30                        Internet security relies heavily on cooperation between
                                                                              the public and private sectors. As the new chairman of
Payments under the agreement began being                                      the Federal Financial Institutions Examination Council
issued in April; by the end of August, checks totaling                        (FFIEC), a two-year position he assumed in April,
$3.6 billion had been distributed to almost all of the                        Comptroller Curry spearheaded the formation of an
4.2 million eligible borrowers.31                                             interagency working group charged with coordinating
                                                                              with intelligence, law enforcement, and homeland
Information Security                                                          security officials to fight existing and emerging
The information systems that banks and their                                  Internet threats. The working group is considering
customers depend on create vulnerabilities that must                          ways to improve coordination of supervisory policies
be intensively monitored and managed. Although                                relating to cybersecurity and infrastructure resilience
politically or criminally motived cyber-attacks have                          and whether additional legislative authority is needed
occurred, the OCC has found that breakdowns in bank                           to address security threats.
information systems frequently were related to more
                                                                              For its part, the OCC strengthened its ability to serve
mundane issues: unaddressed maintenance items;
                                                                              as a resource to industry and government in the effort
                                                                              to combat Internet crime directed at banks, particularly
28
  Two servicers were added to the original consent order; four later became   smaller, under-resourced institutions whose systems
parties to the January agreement; and one signed a separate agreement in
August providing for some $33.3 million in borrower compensation and          may be relatively unguarded and, therefore, more
assistance.                                                                   susceptible to intrusion. The agency organized a
29
  OCC, “Independent Foreclosure Review to Provide $3.3 Billion in             Web conference, “The Evolving Cyber Landscape:
Payments, $5.2 Billion in Mortgage Assistance,” news release 2013-3,
January 7, 2013. The agreement was amended in February to raise both the      Awareness, Preparedness, and Strategy for Community
original number of eligible borrowers and the total amount of compensation    Banks,” for more than 1,000 community bankers.32
due them. OCC, “Amendments to Consent Orders Memorialize $9.3
Billion Foreclosure Agreement,” news release 2013-35, February 28, 2013.      The agency also created and filled a new position,
30
  OCC, “Statement from Comptroller of the Currency Thomas J. Curry            Senior Infrastructure Officer.
on the IFR Settlement,” news release 2013-4, January 7, 2013. See also
remarks by Thomas J. Curry, Women in Housing and Finance, February 13,
2013.
                                                                               OCC, “OCC Holds Web Conference for Community Banks on Cyber
                                                                              32
31
     “Correcting Foreclosure Practices,” updated September 19, 2013.          Threats,” news release 2013-96, June 12, 2013.


	                                                                                                    Section One: Year in Review             19
                                                                             criminal activity. The act requires banks to maintain
                                                                             records and file suspicious activity reports (SAR)
                                                                             and other reports that law enforcement and regulators
                                                                             use in combating money laundering and other
                                                                             financial crimes. The BSA has become an invaluable
                                                                             preventative and investigative tool in the country’s
                                                                             overall law enforcement and homeland security
                                                                             programs. There are now more than 5.6 million SARs
                                                                             in the centralized database maintained by the Financial
                                                                             Crimes Enforcement Network (FinCEN), a bureau of
                                                                             the Treasury Department that collects and analyzes
                                                                             information about bank transactions for use by law
Comptroller Curry testifies before the U.S. Senate Committee on              enforcement.
Banking, Housing, and Urban Affairs on OCC efforts to ensure
industry compliance with the Bank Secrecy Act.
                                                                             The BSA has always been a challenging law for banks
                                                                             to implement and for regulators to enforce. It requires
The agency held a series of confidential briefings                           banks to sift through vast numbers of transactions
for banks, third-party service providers, and bank                           to spot those with suspicious characteristics. It pits
examiners. It issued an alert on denial-of-service                           banks against resourceful adversaries who are quick
attacks and is reviewing examiner handbooks,                                 to change tactics when they sense the possibility of
procedures, and training materials to ensure that,                           exposure. As criminals refine their techniques, banks
as threats evolve, all banks and federal savings                             have to refine their own to maintain the security of the
associations can identify cyber risks and strengthen                         financial system.
their risk management and control systems.33 In
addition, the OCC became a member of the Financial                           An effective BSA program requires banks to create
Services Information Sharing and Analysis Center                             a culture of accountability within the organization.
in 2013. This is an intelligence operations center                           Compensation structures, promotions, performance
providing around-the-clock monitoring of cyber                               standards, and job descriptions should include and
and other threats to the financial services industry.                        consider BSA responsibilities, obligations, and
Membership gives the OCC greater real-time insight                           performance, and reflect a “culture of compliance”
into a broad range of potential threats to the industry                      in which BSA compliance is a priority for the
and the ability to assist, when appropriate, in a                            organization. The extent of a BSA program must be
coordinated response with other government agencies.                         commensurate with the bank’s size, complexity, and
                                                                             overall risk profile.
Enforcing the Bank Secrecy Act
                                                                             Finally, the most successful BSA programs ensure
Banks require strong internal controls to prevent                            that banks carefully monitor their relationships with
criminals from using banks to launder profits from                           payment processors and third-party providers, take
illegal activities or funnel cash into the hands of                          BSA considerations into account in the development
terrorists for hostile purposes. Criminals can take                          and introduction of new payment technologies, and
advantage of profit pressures that tempt bank officers                       recognize the shifting nature of the money laundering
to cut corners or ignore suspicious transactions; the                        threat.34
advent of relatively simple, inexpensive tools that
make it possible to infiltrate bank systems undetected;                      The banks that the OCC cited for major BSA
and the simple fact that no safeguard, physical or                           deficiencies in 2013 lacked one or more of these
technological, can ever be absolutely effective.                             attributes. In one case, the OCC issued a cease and
                                                                             desist order when it determined that the bank’s BSA
The Bank Secrecy Act (BSA), enacted in 1970, is one                          compliance program had critical deficiencies with
of the country’s most powerful weapons against such
                                                                              Testimony of Thomas J. Curry, Committee on Banking, Housing, and
                                                                             34
33
     Remarks by Thomas J. Curry, Exchequer Club, September 18, 2013.         Urban Affairs, U.S. Senate, March 7, 2013.


20           Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
     The Community Reinvestment Act: A Powerful Tool
     After the financial crisis, the argument
     was sometimes heard that loans made
     with the intention of qualifying for credit
     under the Community Reinvestment
     Act (CRA) tended to be more poorly
     underwritten, and, therefore, more likely
     to become delinquent, than others.
     Research has shown, however, that
     those loans performed no worse—and
     in some cases performed better—than
     those with no CRA connection.
     A more valid concern is whether the CRA
     continues to be relevant in a changing
     financial world. The law, which dates
     to 1977, was written at a time when
     banks needed a physical presence to
     serve their customers, draw deposits,
     and make loans. Since the OCC, the
     Federal Reserve Board and the FDIC
     last updated their CRA guidance in
     1995, these questions have taken on
     added urgency: Should a bank whose
     deposits come from beyond its branch-
     based assessment area have CRA
     responsibilities in those outlying areas?
     What changes are needed to increase
     community development lending and
     investment in rural areas and small towns
     beyond a bank’s assessment area?
     Should CRA obligations extend to non-
     banks and holding company affiliates
     and subsidiaries?
     Public hearings in cities around the
     country focused on these matters in
     2013. In March, the three federal banking
     agencies proposed new questions and
     answers (Q&A) to guide institutions
     subject to the CRA. The proposed Q&A
                                                       Comptroller Curry and OCC Community Affairs staff visit the historic Tivoli
     explains the CRA considerations of                Theatre in Washington, D.C. The theater was renovated with the help of
     investments in nationwide funds and               financial support provided under the OCC’s public welfare investment
     how to document them. The guidance,               authority.
     issued in final form in November 2013,
     clarifies the consideration given to certain community                training programs to ensure the rules are applied
     development services, and it defines how regulators                   consistently.
     will treat qualified investments to organizations that
                                                                           “Since its enactment in 1977, the Community
     use only a portion of the investment to support a
                                                                           Reinvestment Act has served as a bridge that links
     community development purpose. As the OCC and
                                          35
                                                                           financial institutions with community stakeholders,”
     other banking regulators adopt the new guidance,
                                                                           Comptroller Curry said. The OCC is helping to
     the agencies will revise examination procedures and
                                                                           strengthen those bonds.
     conduct examiner

35
  OCC, “Agencies Release Proposed Revisions to Interagency Questions
and Answers Regarding Community Reinvestment,” news release 2013-47,
March 18, 2013; OCC, “Agencies Release Final Revisions to Interagency
Questions and Answers Regarding Community Reinvestment,” news
release 2013-176, November 15, 2013.


	                                                                                             Section One: Year in Review            21
respect to suspicious activity reporting, monitoring
transactions, conducting customer due diligence
and risk assessment, and implementing adequate
systems of internal controls and independent testing.36
In another case, the OCC assessed a $37.5 million
penalty against a bank for failing to file SARs on
activity in accounts that were used to support a
$1.2 billion Ponzi scheme, despite numerous alerts
generated by those accounts.37 In a third case, the OCC
assessed a $4.1 million penalty against a bank that had
failed to file SARs in connection with its relationship
with several international money exchanges.38

In testimony before the U.S. Senate Committee on
Banking, Housing, and Urban Affairs, Comptroller
Curry described the OCC’s approach to Bank                                     Consumer Protection
Secrecy Act and anti-money laundering (BSA/AML)                                Although Dodd–Frank’s creation of the CFPB
supervision and outlined a series of steps to make it                          changed how many consumer financial services are
stronger. Those steps include                                                  regulated, the OCC retained a number of its consumer-
•	   the formation of a senior-level oversight                                 related responsibilities. Under Dodd–Frank, the OCC
     committee to review high-profile and complex                              continues to oversee bank compliance with the Flood
     BSA/AML enforcement matters.                                              Disaster Protection Act, the Community Reinvestment
•	   ensuring that examiners factor the quality of                             Act, and the Servicemembers Civil Relief Act. The
     a bank’s BSA/AML compliance into their                                    OCC also continues to be responsible for examining
     assessment of the management component of a                               all areas of consumer compliance for banks with
     bank’s CAMELS rating.                                                     $10 billion in assets or less, a cut-off that covers the
•	   clarifying the operation of the OCC’s BSA                                 great majority of banks in the United States.
     Large Bank Review Team to ensure a sound and                              In other areas, such as credit card and mortgage
     timely action when a bank has multiple MRAs,                              lending, OCC authority overlaps with that of the
     or apparent violations of its BSA/AML program.                            CFPB. The two agencies have made important strides
•	   providing examiners with greater flexibility to cite                      toward coordinating their credit card examinations,
     violations based on fundamental deficiencies in                           with the OCC focusing on risk to the institution while
     banks’ BSA/AML programs.                                                  the CFPB looks at risk to the consumer. Similar
Furthermore, the OCC expressed its support for                                 arrangements are contemplated in other areas in which
legislative changes that would strengthen the statutory                        the two agencies have common responsibilities, such
safe harbor from civil liability for banks that file                           as Equal Credit Opportunity Act and Fair Housing
SARs, and expand the scope of the safe harbor for                              Act enforcement. “I think of the OCC—and the other
banks that share information concerning potential                              bank regulatory agencies—as the general practitioner,”
crimes and suspicious activity.39                                              Comptroller Curry explained, with “the CFPB as the
                                                                               specialist.” The health of the financial system depends
36
  OCC, “OCC Issues Cease and Desist Order Against JPMorgan Chase,              on close cooperation among all the agencies that have
N.A., Related to Bank Secrecy Act/Anti-Money Laundering,” news release
2013-8, January 14, 2013.                                                      a hand in its care, and the OCC is working hard to
37
  OCC, “OCC Assesses $37,500,000 Penalty Against TD Bank, N.A.,                promote that cooperation.40
for Failures to File Suspicious Activity Reports,” news release 2013-145,
September 23, 2013.
38
  OCC, “OCC Assesses $4.1 Million Civil Money Penalty Against Saddle
River Valley Bank for Bank Secrecy Act Violations,” news release 2013-
147, September 24, 2013.
 Testimony of Thomas J. Curry, Committee on Banking, Housing, and
39
                                                                                Remarks by Thomas J. Curry, FFIEC Consumer Compliance Specialists
                                                                               40

Urban Affairs, U.S. Senate, March 7, 2013.                                     Conference, January 30, 2013.


22         Office of the Comptroller of the Currency       |   Annual Report Fiscal Year 2013
    A Continuing Commitment to Diversity
    Year after year, the OCC appears high on
    the list of best places to work in the federal
    government. This ranking both reflects and
    solidifies the OCC’s reputation for having
    one of the government’s most competent
    and accomplished workforces. The agency
    gets particularly high marks for its support
    of diversity. This is partly a tribute to the
    effectiveness of the OCC’s Office of Minority
    and Women Inclusion (OMWI). Under Dodd–
    Frank, each of the federal financial agencies
    is required to establish such an office to
    monitor the diversity efforts of the agency, the
    regulated entities, and agency contractors.
    The OCC’s commitment to diversity hiring
    focuses not only on gender, race, and
    ethnicity, but also on bringing different
    viewpoints and approaches to problem
    solving. A diverse workforce enables the
    OCC to respond better to changes in the
    financial services industry, particularly its
    globalization. Ultimately, the OCC embraces
    diversity because it makes the agency a better
    supervisor of the federal banking system.
    At the end of 2012, the agency’s permanent           Joyce Cofield, Executive Director, Office of Minority and Women
    workforce was 46 percent female and 31               Inclusion
    percent minority, on par with the national
    civilian labor force. When the agency dug behind               careers in government will consider employment with
    the numbers, however, it found areas in which it               the OCC.41
    could improve: recruiting and retaining female bank
                                                                   Another pillar of the agency’s diversity commitment is
    examiners, encouraging the hiring of more Hispanics
                                                                   ensuring that small businesses, especially minority-
    in nonexaminer areas, elevating more women and
                                                                   owned and woman-owned small businesses, receive
    minorities into supervisory and higher grade-level
                                                                   full consideration for government contracts. More than
    positions, and recruiting and retaining more individuals
                                                                   60 percent of OCC awards went to small businesses in
    with disabilities.
                                                                   2013. Dodd–Frank requires that agencies put in place
    One way the OCC worked to meet minority recruitment            standards and procedures that commit contractors to
    goals was to diversify the pool of applicants from             demonstrating good faith efforts to ensure diversity of
    which the OCC fills vacancies. The agency established          their workforces. OMWI monitors the OCC’s compliance
    partnerships with organizations that work to recruit           with this provision for all agency contracts valued in
    minority students, and in 2013 the agency expanded             excess of $150,000. Dodd–Frank also calls on the OCC
    its National Diversity Internship Program, which gives         and other federal financial regulators to issue standards
    high-achieving college students the opportunity to learn       for assessing regulated institutions’ diversity policies
    more about public service in general and the OCC in            and practices. The agencies published joint standards
    particular. The hope is that students who choose               for comment in October 2013.




                                                                  41
                                                                    OCC, “OCC Provides Summer Experience to Minority and Women
                                                                  Interns,” news release 2013-121, August 7, 2013.


	                                                                                         Section One: Year in Review            23
As Comptroller Curry pointed out in a speech to a                           inherent in debt collection and the sale of charged-off
group of agency compliance specialists, “safety and                         debt, and treat their customers fairly.45
soundness depends critically upon fair treatment
of consumers. Once a financial institution loses the                        ‘Heightened Expectations’ for Corporate
confidence and trust of its customers, it has placed                        Governance and Oversight
its future in jeopardy. And once it is lost, confidence                     The experience of the financial crisis demonstrated the
is very hard to win back.”42 The OCC is no less                             need to raise supervisory expectations for corporate
committed to ensuring that the institutions it supervises                   governance and oversight. In response, the OCC
fully comply with applicable consumer protection laws                       adopted a program of “heightened expectations” for
than it was before the CFPB was created.                                    corporate governance and oversight in the largest,
                                                                            most complex institutions.
The OCC demonstrated this commitment in various
ways in 2013. In April, the agency issued proposed                          The OCC’s heightened expectations require boards
guidance related to deposit advance products—small                          of directors to understand and properly manage the
dollar, short-term loans that a bank makes available                        risks undertaken by their institutions. Independent
to a customer with recurring direct deposits. A                             directors must have the expertise and tools to
deposit advance loan is repaid from the proceeds                            challenge management when necessary. The OCC
of the customer’s next direct deposit. These loans                          looks to board members to set the tone for enterprise-
typically have high fees, are repaid in a lump sum in                       wide professional standards, corporate values, and
advance of the customer’s other bills, and often do                         integrity.46 The OCC also expects banks to institute
not consider the customer’s ability to repay the loan                       and follow a rigorous process to ensure that banks are
while still meeting other financial obligations. These                      attracting and retaining the kind of talent they need to
loans have a legitimate purpose, but they also pose                         manage their businesses in a safe and sound manner.
credit, compliance, legal, and reputation risks that are
addressed in the proposed guidance. The OCC issued                          Under these heightened expectations, only those banks
the final guidance in November 2013.43                                      with “strong” audit and risk management functions
                                                                            will meet OCC standards.47 “Strong” risk management
The agency also took aggressive steps to curtail                            functions provide bank leadership with the information
unsafe and unsound retail debt collection practices,                        necessary to verify that the bank’s predefined policies
such as inaccurate court filings, improperly notarized                      and procedures regarding risk are being followed.
documents, and false attestations to the accuracy of                        “Strong” internal audit programs under the OCC’s
sworn documents.44 The OCC concluded two major                              heightened expectations are those that are highly
enforcement actions against banks found to have                             anticipatory and systemically focused. The OCC
engaged in these practices, both of them requiring                          expects bank leaders to implement these procedures
correction of the deficiencies in the banks’ practices                      not only because strong audit and risk management
and restitution to affected customers. Through these                        are required by regulation, but also because trust and
actions, the OCC made it clear that banks must                              integrity are fundamental to the business of banking.48
effectively manage the operational and reputation risk
                                                                            The agency expects senior bank managers to establish
                                                                            their banks’ appetite for risk in every area of the



 Remarks by Thomas J. Curry, FFIEC Consumer Compliance Specialists
42
                                                                            45
                                                                              “OCC Assesses Civil Money Penalty Against American Express, Orders
Conference, January 30, 2013.                                               $6 Million in Restitution,” news release 2012-137, October 1, 2012;
43
  OCC, “Office of the Comptroller of the Currency Releases Guidance         “OCC Takes Action Against JPMC to Protect Consumers and to Ensure
on Deposit Advance Products,” news release 2013-69, April 25, 2013;         Servicemembers Receive Credit Protections for Their Non-Home Loans,”
OCC, “Office of the Comptroller of the Currency Releases Final Guidance     news release 2013-139, September 19, 2013.
Regarding Deposit Advance Products,” news release 2013-182, November         On the role of bank directors, see remarks by Thomas J. Curry, Bank
                                                                            46
21, 2013.                                                                   Director: Acquire or Be Acquired Conference, January 28, 2013.
44
  “Shining a Light on the Consumer Debt Industry,” OCC Statement to the     47
                                                                                 Remarks by Thomas J. Curry, The Clearing House, November 15, 2012.
Committee on Banking, Housing, and Urban Affairs, U.S. Senate, July 17,
2013.                                                                       48
                                                                                 Remarks by Thomas J. Curry, Manhattan College, April 30, 2013.


24        Office of the Comptroller of the Currency     |   Annual Report Fiscal Year 2013
banks’ activities, to disseminate those tolerance                        OCC Self-Assessment and
structures widely to business units, and to hold those                   Self-Improvement
units accountable if limits are exceeded. The agency
                                                                         Over 150 years, the OCC has developed a unique
expects banks to have strong processes in place for
                                                                         culture of integrity, professionalism, independence,
establishing and communicating company risk profiles.
                                                                         and teamwork. Professionalism demands honest self-
The OCC has also made it clear that management                           scrutiny and the obligation to study and learn from the
and boards of directors must fulfill their fiduciary                     agency’s mistakes as well as its successes. In 2013, the
responsibility to protect the sanctity of the federal bank               OCC was immersed in reviewing its capabilities and
charter, recognizing that the charter provides the unique                limitations, applying to itself the same high standards
benefits of a gateway to federal deposit insurance and                   of enterprise risk management that the agency
access to the resources of the Federal Reserve System.                   demands of the institutions it supervises. Teams of
The bank formed under that charter must not be treated                   OCC experts worked on the eight key elements of
as a mere tool of corporate convenience or as a booking                  the agency’s Strategic Initiatives. Led by at least one
entity for the holding company that controls it. The                     senior OCC manager, each team pursued different
OCC is now formalizing these expectations by turning                     goals:
them into enforceable standards.49
                                                                         •	   Aligning: Improving the alignment of retention,
                                                                              recruitment, and training programs with agency
                                                                              needs.
49
  Remarks by Thomas J. Curry, 49th Annual Conference on Bank Structure
and Competition, May 9, 2013.


	                                                                                             Section One: Year in Review       25
•	    Supervising: Developing enhanced analytic                                                        veteran National Bank
      capabilities, improving interdisciplinary and                                                    Examiner Larry L.
      interagency teamwork, and developing a robust                                                    Hattix, to the agency’s
      capacity for self-assessment.                                                                    Executive Committee.
•	    Leading: Developing improved succession plans,                                                   Mr. Hattix has been the
      leadership training programs, and new strategies to                                              agency’s Ombudsman
      encourage strategic thinking.                                                                    since 2008, and he
•	    Funding: Moving toward more diversified agency                                                   continues to serve
      funding and strengthening the agency’s financial                                                 in that capacity,
      stewardship.                                                                                     providing banks with
•	    Connecting: Developing a comprehensive,                                                          an avenue to appeal
      proactive agency approach to address information                                                 supervisory decisions.51
      technology needs.                                                                                The OCC was the
•	    Engaging: Enhancing morale and shared                             Larry L. Hattix                first federal banking
      sense of purpose through improved internal                                                       agency to create an
      communications.                                                   Ombudsman’s Office, in 1993. The office’s success
•	    Messaging: Sharpening the agency’s message to                     later prompted Congress to require that the other
      outside stakeholders.                                             banking agencies establish internal appellate processes
•	    Assessing: Building consistent and disciplined                    as well.
      processes for self-assessment and improvement.
                                                                        As the fiscal year ended, the agency launched an
With regard to the assessing initiative, the OCC’s                      initiative designed to test and refine its approach
Enterprise Governance Unit was charged with                             to large and midsize bank supervision. The agency
conducting independent reviews—structured like a                        assembled a team of current and former senior
bank examination—of each OCC line of business.                          supervisors from across the globe to assess the OCC’s
If deficiencies are identified, the unit will issue an                  supervisory practices relative to other countries to
MRA order, which will be monitored and tracked for                      determine what worked well, what worked less well,
completion.50                                                           and what did not work at all during the financial
                                                                        crisis. The OCC looks forward to learning from
To reinforce the high degree of importance that the                     those experiences, as it seeks to build a future as
OCC places on enterprise governance, the Comptroller                    distinguished as its 150-year past.
elevated the leader of the Enterprise Governance Unit,




                                                                        51
                                                                          OCC, “Larry Hattix Named Senior Deputy Comptroller for Enterprise
                                                                        Governance and Ombudsman,” news release 2013-26, February 7, 2013.
50
  Remarks by Thomas J. Curry, American Banker Regulatory Symposium,     See also OCC, “Report From the Office of the Ombudsman, 2008–2012
September 23, 2013.                                                     Highlights,” April 2013.


26	       Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
Section Two
People in OCC History


Abraham Lincoln, Father of the                              After he signed the bill into law, Lincoln elaborated
National Banking System                                     on what the national banking system meant to the
                                                            country. The “national system,” he told an audience in
                      Abraham Lincoln had been a
                                                            1864, was to be a “reliable and permanent influence”
                         vocal supporter of proposals
                                                            and a “great benefit” to the country. At last, he said on
                           for a sound money supply
                                                            another occasion, the American people would have
                            and a well-regulated
                                                            “a currency as safe as their own government”—and a
                             banking system dating
                                                            banking system they could rely on.
                              back to the 1830s, when
                              he was a member of            This prediction has been amply fulfilled over the past
                             the Illinois legislature.      150 years.
                            As President, he had the
                          opportunity to make this          Hugh McCulloch, First Comptroller
                       vision a reality.                                           When the National Currency Act
As his personal secretary noted, Lincoln “frequently                                 became law on February 25,
consulted” with his Secretary of the Treasury, Salmon                                  1863, Hugh McCulloch,
P. Chase, to figure out what would be in a banking                                      President of the State
bill and how to move it through Congress. They knew                                     Bank of Indiana, wrote to
this would not be easy. State bankers objected to the                                    his wife, Susan, saying
federalization of banking, and many lawmakers were                                       that, after having worked
uncomfortable with the centralization of economic                                       industriously, though in
power that the bill seemed to promise. But the                                         vain, to defeat that measure,
administration overcame their objections. Wavering                                    “he had nothing more to do
lawmakers were persuaded by the argument that the                                   and would take a rest.”
National Currency Act was necessary to stimulate the        With that, the McCullochs headed off on a vacation
sale of government bonds and ensure that the Civil          tour of the big cities of the East, leaving no forwarding
War troops in the field were fed and paid.                  address, “in order that we might enjoy a few genuine
Lincoln also used his influence to gain passage of the      holidays.” Their least favorite stop was Washington.
measure. On the night before the final U.S. Senate          Susan wrote that the capital city had an “unfinished”
vote, the president dispatched one of his private           look to it and she found the food at one establishment
secretaries to Capitol Hill, seeking to placate two         “abominable.” “We did not call upon a single
senators hostile to the bill. The next day, both voted in   acquaintance in the city,” she recalled in her memoirs,
favor of the National Currency Act, giving it a two-        “but were glad to leave Washington behind us.”
vote margin of victory. Fittingly, Senate passage of        They celebrated their 25th wedding anniversary in
the bill took place on February 12, 1863—Lincoln’s          Hartford, Conn., and then traveled on to Boston, Mass.,
birthday.                                                   to Kennebunk, Maine (Hugh’s birthplace), and to

                                                                           Section Two: People in OCC History      27
Plattsburgh, N.Y. A number of telegrams were waiting                    McCulloch’s son, Charlie, also urged him to accept
there, apparently following him from city to city. One                  Chase’s offer: “Father, I think it is your duty to go.
was from Chase, the Treasury Secretary, offering him                    The country is in the midst of a great war, the finances
the position of Comptroller of the Currency.                            are in a very confused condition, and now you really
                                                                        ought to go to take care of the finances from patriotic
McCulloch pondered Chase’s offer as he and Susan                        motives.”
traveled to New York City, the final stop in their grand
tour. There McCulloch encountered a longtime friend,                    With his family behind him, McCulloch resolved
the Governor of Indiana, Oliver P. Morton.                              to “go on and see Mr. Chase and talk it over with
                                                                        him and then if I think right on the whole, after due
“Where have you been?” Morton exclaimed. “[Vice                         consideration, I will take the position.” And he did.
President Schuyler] Colfax and Chase have been
telegraphing for you all over the country. They want                    So, on May 9, 1863, Comptroller McCulloch, Deputy
you to take charge of the new Currency Bureau.”                         Comptroller Samuel T. Howard, and two clerks, Miss
                                                                        John and Miss Wilson, went to work establishing the
“I can’t do it,” said McCulloch. “I want a rest, I am                   National Currency Bureau—or as we now know it, the
tired.”                                                                 Office of the Comptroller of the Currency.
“Oh, I guess you will have to,” the Governor replied.                   Charles G. Dawes,
“They all want you and no one else.”                                    Comptroller of Many Talents
That was only half true. Several other men had                                               In the list of great Americans
been offered the job, and all had declined it. Like                                             who served as Comptroller of
McCulloch, they were uncomfortable with the notion                                                the Currency, none stands
of the federal government operating in competition                                                 out more than Charles G.
with the state banks. McCulloch was afraid that the                                                 Dawes. Of distinguished
prestige of the national bank charter, the lure of the                                              lineage—his ancestors
uniform currency that the act empowered them to                                                     were among the founders
issue, and the greater safety and soundness of national                                             of the Massachusetts Bay
banks under federal supervision would doom the state                                               Colony—Dawes was a
banks, including the Indiana state bank that he headed.                                          man of enormous and varied
                                                                                              talents: lawyer, engineer,
But the more McCulloch reflected on the National                                          scholar, financier, musician,
Currency Act, the more he became convinced of                           businessman, diplomat, and politician.
its necessity. McCulloch, like nearly all northern
bankers, was a strong supporter of the Union cause,                     Dawes was only 33 in 1897, when President William
which was suffering from a lack of funding. At a time                   McKinley named him the 10th Comptroller. But he
when millions of Americans were making enormous                         had already built a reputation as a leading student of
sacrifices for the war effort, McCulloch believed that                  U.S. financial history, largely on the strength of his
the government “had a right to any services that I                      book, The Banking System of the United States, which
might be able to render in the tremendous struggle in                   was published in 1894. It was the first of nine books
which it was engaged.”                                                  that he wrote.

Although she was no more enthusiastic about moving                      Dawes served an abbreviated term as Comptroller.
to Washington than he was, Susan advised her husband                    But his tenure came at a critical time for the national
to take the position, with the understanding that he                    banking system, which was still recovering from the
would remain in office “no longer than might be                         Panic of 1893. Dawes proposed a series of measures
necessary to give the new banking system a successful                   designed to bring depositors back into the banks and
start.”                                                                 increase the availability of banking services in smaller




28      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
communities that had long gone without them. He also         A Major” has had a long life in various guises: as a
took steps to strengthen OCC supervision, which he           cadenza in the repertoire of classical violinist Fritz
saw as essential to restoring public confidence in the       Kreisler, in versions for orchestra, and, with lyrics and
banks.                                                       a new title, “It’s All in the Game,” as a number one hit
                                                             song for vocalist Tommy Edwards in 1958.
When Dawes left the OCC, he was only 36, and his
most important achievements were still ahead. He             Charles Gates Dawes died at his home in Evanston,
founded and ran a major financial institution, the           Ill., at the age of 86.
Central Trust Company of Illinois. He enlisted in
the Army when the United States entered World                Adelia M. Stewart,
War I, and quickly distinguished himself as a master of      National Bank Examiner
organization and logistics. After the war, he developed                             Born in 1866, Adelia M. Stewart
a plan to facilitate the payment of reparations from                                   was still a child when her
Germany to the victorious allies—a plan that bore his                                    family moved 200 miles
name and won him a share of the 1925 Nobel Peace                                          inland from her birthplace,
Prize.                                                                                     Oshkosh, Wis., to
                                                                                            Chippewa Falls. At the
He was elected Vice President of the United States on
                                                                                            age of 25, she left home
the Coolidge ticket in 1924, and after leaving office
                                                                                           for the bright lights and
four years later, he was appointed Ambassador to
                                                                                          employment opportunities
Great Britain by President Herbert Hoover. He later
                                                                                        in Chicago. There she took
served as a U.S. delegate to various international
                                                                                      and passed the federal civil 	
conferences and as chairman of the Reconstruction
                                                             	                    service exam and accepted a
Finance Corporation, a government agency created
                                                             position as a clerk in the OCC’s Washington, D.C.,
in 1932 to make emergency loans to financial,
                                                             headquarters. Her salary was $45 a week—much lower
industrial, and agricultural institutions during the Great
                                                             than men were paid for comparable work.
Depression.
                                                             Sometime around 1905, Stewart began evening study
But Dawes’s talents and interests did not end with
                                                             at the Washington College of Law, which had been
his stellar public service career. His first love was
                                                             established in the 1890s as one of the country’s first
music. Visitors to his home near Chicago, Ill., would
                                                             law schools for women. The school, and the idea of
often find him at the piano, plunking out tunes and
                                                             female attorneys, was slow to gain acceptance. She
composing a few of his own. He was particularly
                                                             was one of only two women among the 153 attorneys
proud of a melody in the key of A, which he shared
                                                             admitted to the D.C. bar in 1914. In 1921, after
one day in 1911 with a musician friend. Months later,
                                                             passing the qualifying test with the highest grades,
while strolling down State Street, he was shocked
                                                             Stewart received her commission as a National Bank
to see in the window of a music shop “a poster-size
                                                             Examiner—the first female bank examiner in the
picture of myself, my name plastered all over the
                                                             OCC’s history. A year later, she was appointed chief of
window in large letters and the window space entirely
                                                             the OCC’s examining division.
filled with the sheet music.”
                                                             During her 44 years of government service, Stewart
The tune had become a hit—much to Dawes’s
                                                             served 11 Comptrollers of the Currency. She also
consternation. He was afraid he would be taken less
                                                             served as a model of dedication and professional
seriously as a banker and politician. But music often
                                                             success that inspired countless others.
has a life of its own, and Dawes’s “Melody in




	                                                                           Section Two: People in OCC History      29
James J. Saxon,                                                       came under siege and Saxon received the order to
War Hero and Comptroller                                              seize Japanese-owned cash, securities, and gold—
                                                                      nearly six tons of it—and flee to Corregidor Island,
                        Growing up on the streets of
                                                                      just off the coast, before the enemy arrived.
                          Toledo, Ohio, young Jimmy
                           Saxon was no fighter. While                It was not long before Corregidor itself was
                             the other neighborhood                   surrounded. With the enemy closing in, Saxon and
                              kids roughhoused, Jimmy                 his compatriots burned the cash and securities in a
                              would watch from a safe                 gigantic bonfire, unfortunately also attracting Japanese
                              distance, seated on the                 gunners in the process.
                              handkerchief he neatly
                            laid out on the sidewalk to               The gold required special treatment. Throughout
                           avoid dirtying his trousers.               the moonless nights of February 4 and 5, 1942, a team
                                                                      led by Saxon loaded the bullion onto the submarine
	                   The fastidious part of him never                  USS Trout, bound for Hawaii. Saxon and the others
changed. But the pugnacious part did.                                 made their escape aboard another submarine and
                                                                      finally arrived in San Francisco on April 1. The man
After abandoning his plan to study for the priesthood,
                                                                      who had burned millions in currency and secreted out
Saxon moved to Washington, D.C., doing graduate
                                                                      millions in gold had to wire home for $200 to cover
work in economics at night and working as an analyst
                                                                      his travel back to Washington. The Philippines episode
at the OCC during the day, a job arranged for him by
                                                                      turned out to be the first of many wartime exploits that
his district congressman.
                                                                      took Saxon to Hawaii, the Caribbean, Spain, North
By 1940, however, the country was mobilizing for                      Africa, and Scandinavia.
involvement in the war that had already engulfed
                                                                      His wartime experience helped transform Saxon from
Europe. With his financial expertise, Saxon transferred
                                                                      an academic into an activist, to someone who took
to the new Office of Foreign Funds Control, whose job
                                                                      his battles personally and pursued them with zeal. As
was to identify assets belonging to potential enemies.
                                                                      the 21st Comptroller of the Currency, appointed by
He was on duty in the Philippines, then an American
                                                                      President Kennedy in 1961, Saxon used his authority
protectorate, when Japanese bombs rained on Pearl
                                                                      to fight for a more competitive national banking
Harbor and the Japanese army began its push into the
                                                                      system and a more professional OCC.
South Pacific. Manila, the Philippine capital,




30	     Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
Section Three
Condition of the Federal Banking System

Summary                                                                    $6.2 billion, and net interest income fell by
                                                                           $3.4 billion. A $6.5 billion drop in provision expenses
Profitability at banks moved to a new post-crisis high
                                                                           also boosted pre-tax net income.
in the first half of calendar year 2013,52 on the strength
of higher noninterest income, lower provisions, and                        The sources of improvement are not likely to last. For
lower noninterest expenses. Net interest income edged                      example, half of the gain in noninterest income came
down, however, as modest growth in loan volume                             from just two of the largest banks, and much of the
failed to offset pressure on loan yields because of the                    decline in noninterest expense came from a one-time
unprecedented low interest rate climate. Credit quality                    improvement at one large bank. Loan loss provisions,
continued to improve, with charge-off rates for all                        which have been declining since 2009, are at half
major loan categories except residential real estate                       the level of net charge-offs, draining the allowance
running below their long-run averages.                                     for loan and lease losses. As a share of total loans,
                                                                           provisions are almost back to their modern low point
Discussion
                                                                           last seen in 1994–1995 and thus may not have much
For the first half of calendar year 2013, net income                       more room to fall.
at OCC-supervised banks increased by $11.7 billion
compared with a year earlier. Profitability as measured                    Pressure is likely to continue on net interest income,
by return on equity stood at 10.6 percent for the                          the main source of revenue for most banks. Loan
second quarter, well above the 8.8 percent posted a                        volume is finally growing again, but in the first half of
year earlier, but still below pre-crisis levels (i.e., the                 2013 declining loan yields (due to the low interest rate
roughly 15-year period before the crisis). Profitability                   climate) more than offset slightly higher loan volume
continues to improve for OCC-supervised institutions                       for the federal banking system as a whole.
of all sizes, though the pace of improvement has                           Smaller banks, those with assets under $10 billion,
lagged at community institutions with assets less than                     are most affected by the weak economic expansion
$10 billion. The factors boosting earnings thus far,                       and low interest rate climate. They have not been as
mainly falling loan loss provisions and cost cutting,                      successful as their larger peers in reducing noninterest
are not likely to be sustainable sources of profit                         expenses. Indeed, even for many small banks with
growth.                                                                    robust loan growth, the low interest rate climate is
Operating profit. Pre-provision net revenues rose                          producing rates of revenue growth that are subpar
by $12.2 billion (14.1 percent) in the first half of 2013                  relative to their own experience. If not for notable
compared with a year earlier, as noninterest income                        declines in provisions, their net income would not be
rose by $9.3 billion, noninterest expense fell by                          improving.



52
  Only data for the first half of calendar year 2013 were available
by publication deadline. This section of the Annual Report presents
consolidated data for national banks and federal savings associations,
reflecting the expansion of the OCC’s mission under Dodd–Frank.


	                                                                        Section Three: Condition of the Federal Banking System	   31
Loan performance. Loan performance has improved                       noticeably above their post-1990 average. Home
steadily over the past four years. Charge-off rates                   equity line of credit loss rates will likely increase from
declined again for all major loan categories in the first             current levels over the next several years, as many
half of 2013 compared with a year earlier. Only home                  borrowers must begin repaying principal.
equity lines of credit still show charge-off rates




32	     Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
Section Four
OCC Leadership

Thomas J. Curry                                           He is the 21st FFIEC Chairman, marking the fifth time
Comptroller of the Currency                               the OCC has led the council.
                                   Thomas J. Curry        Before becoming Comptroller of the Currency,
                                   was sworn in as the    Mr. Curry served as a Director of the FDIC since
                                   30th Comptroller       January 2004 and as Chairman of the NeighborWorks
                                   of the Currency        America Board of Directors. Comptroller Curry served
                                   on April 9, 2012.      five Massachusetts governors as the Commonwealth’s
                                   The Comptroller        Commissioner of Banks from 1990 to 1991 and from
                                   of the Currency is     1995 to 2003. He was Acting Commissioner from
                                   the administrator of   February 1994 to June 1995. He previously served
                                   the federal banking    as First Deputy Commissioner and Assistant General
                                   system and chief       Counsel in the Massachusetts Division of Banks.
                                   officer of the OCC.
                                   The OCC supervises     Comptroller Curry entered state government in
                                   1,817 national         1982 as an attorney with the Massachusetts Office
                                   banks and federal      of the Secretary of State. He was Chairman of the
savings associations, including 48 federal branches       Conference of State Bank Supervisors from 2000
and agencies of foreign banks in the United States.       to 2001 and served two terms on the State Liaison
These institutions compose nearly two-thirds of the       Committee of the FFIEC, including a term as the
assets of the commercial banking system.                  committee chairman.

The Comptroller also is a Director of the FDIC and        He is a summa cum laude graduate of Manhattan
NeighborWorks America. On April 1, 2013, he was           College, where he was elected to Phi Beta Kappa. He
named Chairman of the FFIEC for a two-year term.          received his law degree from the New England School
                                                          of Law.




	                                                                           Section Four: OCC Leadership	     33
Executive Committee




Comptroller Curry is backed by the Executive Committee, from left: Larry L. Hattix; Paul M. Nash; Jennifer C. Kelly; Thomas R. Bloom; Mark
Levonian, former Senior Deputy Comptroller for Economics; Martin Pfinsgraff; John C. Lyons Jr.; and Amy Friend. Not shown: David Nebhut,
Senior Deputy Comptroller for Economics.


Chief of Staff’s Office                                                  international relations and history from the University
                                                                         of Pennsylvania and a law degree from Georgetown
Paul M. Nash, Senior Deputy Comptroller and Chief of
                                                                         University.
Staff, oversees the OCC’s Public Affairs Department,
which includes Congressional Liaison, Banking                            Chief Counsel’s Office
Relations, Press Relations, Internal Communications,
Minority Affairs, and Communications, and directs the                    As Senior Deputy Comptroller and Chief Counsel,
daily operations of the Comptroller’s support staff.                     Amy Friend supervises the agency’s legal activities,
Mr. Nash joined the OCC in this role in May 2012.                        including legal advisory services to banks and
                                                                         examiners, enforcement and compliance activities,
Before joining the OCC, Mr. Nash was the Deputy to                       litigation, legislative initiatives, and regulation of
the Chairman for External Affairs at the FDIC from                       securities and corporate practices of national banks
2009 to 2012. He served as Executive Director and                        and federal savings associations. Ms. Friend also
Counsel at Verizon Wireless in Washington, D.C.,                         oversees the agency’s licensing and community affairs
from 2001 to 2009. Before joining Verizon Wireless,                      functions.
Mr. Nash was a legislative assistant to Senator Tim
Johnson (D-S.D.) from 1997 to 2001. He also worked                       Before she returned to the OCC in February 2013,
for the Congressional Research Service and practiced                     Ms. Friend was Managing Director at Promontory
law in Washington, D.C., and New Orleans, La.                            Financial Group. From 2008 to 2010, she served
                                                                         as Chief Counsel to the U.S. Senate Committee on
Mr. Nash received a bachelor of arts degree in                           Banking, Housing, and Urban Affairs. She first joined

34       Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
the OCC as Assistant Chief Counsel in 1998, after           a degree in psychology from Allegheny College, a
holding several key legal positions in the private sector   master’s degree in finance from Harvard Business
and the legislative branch.                                 School, and the chartered financial analyst designation.

Ms. Friend is a graduate of the Georgetown University       Midsize and Community Bank Supervision
Law Center and has a bachelor of arts degree in
                                                            Senior Deputy Comptroller Jennifer C. Kelly oversees
psychology from the University of Pennsylvania.
                                                            the supervision of midsize and community banks,
Chief National Bank Examiner’s Office                       focusing on ensuring sound risk identification and
                                                            management processes and regulatory compliance. She
As Senior Deputy Comptroller and Chief National             assumed her current OCC position in April 2008.
Bank Examiner, John C. Lyons Jr. oversees the
development of supervisory policies and examination         Ms. Kelly joined the OCC in 1979 as an Assistant
procedures and tools in the areas of bank information       National Bank Examiner and received her commission
technology, capital, commercial and retail credit risk,     in 1983. She has a broad supervision background,
compliance, financial markets, balance sheet and asset      including extensive experience in problem bank
management, and operational risk. The department            supervision and policy development. She earned a
includes the Office of the Chief Accountant, which          bachelor of arts degree in economics from Mount
oversees accounting policy guidance for national            Holyoke College.
banks and federal savings associations. Mr. Lyons was
appointed to his position in October 2011.                  Economics
                                                                                     David Nebhut serves as Senior
Mr. Lyons joined the OCC in 1977 as an Assistant
                                                                                     Deputy Comptroller for
National Bank Examiner and has held a variety of
                                                                                     Economics, a position he has
leadership and staff positions in bank supervision,
                                                                                     held since November 2013.
including roles as a field examiner, a credit team
                                                                                     The department performs
leader, and Examiner-in-Charge of several banks.
                                                                                     analysis of national and global
He earned a bachelor of science degree in business
                                                                                     economic trends, provides
administration from DePaul University and a master’s
                                                                                     examination support for bank
degree in business administration from Loyola
                                                                                     supervision, contributes to
University Chicago.
                                                                                     policy development, and
Large Bank Supervision                                                               conducts original research.

Senior Deputy Comptroller Martin Pfinsgraff oversees        Mr. Nebhut joined the OCC in 1980 as a financial
the supervision of the largest and most complex             economist. Before taking on his new duties, he
national banks and federal savings associations, as         was Director for Policy Analysis, supervising the
well as federal branches and agencies of foreign banks      development of economic policies related to issues of
in the United States. He joined the OCC in 2011 as          potential importance to the agency.
Deputy Comptroller for Credit and Market Risk and
assumed his current OCC position in July 2013.              Mr. Nebhut has a bachelor’s degree in economics
                                                            from Pennsylvania State University and has completed
Mr. Pfinsgraff has more than 30 years of experience         the coursework for his doctorate in economics at
in finance and risk management in the banking,              Northwestern University.
securities, and insurance industries. He has earned




	                                                                              Section Four: OCC Leadership       35
Office of Management                                                  commission as a National Bank Examiner in 1994,
                                                                      with a specialty in consumer and CRA compliance. He
Thomas R. Bloom, Senior Deputy Comptroller for
                                                                      later became an Assistant Deputy Comptroller and, in
Management and Chief Financial Officer, oversees
                                                                      2008, the OCC Ombudsman.
the OCC’s financial management, human resources,
information technology, asset acquisition, security,                  Mr. Hattix holds a degree in business administration
continuing education, and real estate services.                       and finance from Carroll College.

Mr. Bloom’s extensive government career has                                                     Office of Minority and
included positions in the U.S. Departments of Defense,                                          Women Inclusion
Commerce, and Education and the U.S. General
Services Administration. He joined the OCC in his                                               Executive Director Joyce
current position in 2003.                                                                       Cofield sets policies and
                                                                                                oversees all agency matters
Mr. Bloom has a bachelor’s degree in business                                                   relating to equal employment
administration from the University of Michigan and is                                           opportunity and the diversity
a certified public accountant.                                                                  of the OCC’s workforce,
                                                                                                senior management, and
Office of Enterprise Governance and                                                             business activities. The office
Ombudsman                                                             reports directly to the Comptroller of the Currency.
Larry L. Hattix is the Senior Deputy Comptroller for
                                                                      Before joining the OCC in 2001 as Director of
Enterprise Governance and Ombudsman. He oversees
                                                                      Employment and Diversity Management, Ms. Cofield
the agency’s enterprise governance function, the bank
                                                                      held a number of leadership roles at major U.S.
and savings association appeals program, and the
                                                                      corporations. She has a bachelor of science degree in
OCC’s Customer Assistance Group. He assumed these
                                                                      biology from Virginia Union University and a master’s
duties in February 2013.
                                                                      degree in industrial microbiology from Boston
Mr. Hattix joined the OCC in 1988 as an Assistant                     University.
National Bank Examiner and went on to obtain his




36	     Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
Section Five
Licensing and Enforcement Measures

Figure 1: Corporate Application Activity, FY 2012 and FY 2013


                                                         FY 2012       FY 2013                         FY 2013 decisions

                                                             Applications                           Conditionally
                                                                                    Approved                            Denied       Totala
                                                              received                               approved
    Branches                                                   844            696             694                   0            0       694
    Capital/sub-debt                                           174             97             108                   7            0       115
    Change in bank control                                       10             8               3                   0            0            6
    Charters                                                      2             2               0                   0            0            0
    Conversionsb                                                  5            12              3                    2            0            5
    Federal branches                                              5             0               0                   0            0            0
    Fiduciary powers                                             16             7               4                   0            0            4
    Mergersc                                                     98            92              90                   8            0        98
    Relocations                                                197            190             183                   3            0       186
    Reorganizations (national banks only)                        53            53             34                11               0        45
    Stock appraisals                                              0             0               0                   0            0            0
    Subsidiaries                                               148             48              37                   1            0        38
    12 CFR 5.53 change in assets                                 26            27              13               12               0        25
    Limited national bank upgrade                                 0             0               0                   0            0            0
    Operations                                                   35             4              6                    0            0            6
    Sasser/conversions outd                                      38            34              24                   3            0        27
    Bylaw/charter
                                                                 73            99              94                   0            0        94
    (federal savings associations only)
    Total                                                    1,724          1,369         1,293                 47               0     1,343
Source: OCC data.
a
    Total includes alternative decisions or no-objections.
b
    Conversions to national bank charters.
c
    Mergers include failure transactions when a national bank is the resulting institution.
d
    Conversions to federal savings association charters and mutual-to-stock conversions.




	                                                                                Section Five: Licensing and Enforcement Measures	            37
Figure 2: Licensing Actions and Timeliness, National Banks, FY 2012 and FY 2013

                                                                                FY 2012                               FY 2013
                                                                                    Within target                        Within target
                                              Target time
                                                                Number of                                 Number of
                                               frames in                        Number         Percent                 Number       Percent
                                                                decisions                                 decisions
                                                 daysa
    Branches                                          45/60              862           858          100         694        676           97
    Capital/sub-debt                                  30/45              145           142          98          115        109           95
    Change in bank control                           NA/60                 6              5          83           6             5        83
    Chartersb                                                              2              2         100           0             0          0
    Conversions                                       30/90                8              6         75            5             5       100
    Federal branches                                NA/120                 2              2         100           0             0          0
    Fiduciary powers                                  30/45                5              4         80            4             4       100
    Mergers                                           45/60               94            91          97           98         92           94
    Relocations                                       45/60              192           188          98          186        180           97
    Reorganizations                                   45/60               49            42          86           45         40           89
    Stock appraisals                                 NA/90                 0              0           0           0             0          0
    Subsidiaries                                          NA             115           113           98          38         37           97
    12 CFR 5.53 change in assets                     NA/60                27            26           96          25         25          100
    Limited national bank upgrade                                          0              0           0           0             0          0
    Operations                                        30/60               25            25          100           6             6       100
    Sasser/conversions out                            30/60               41            41          100          27         27          100
    Bylaw/charter                                     30/60               66            66          100          94         94          100
    Total                                                              1,639         1,611           98       1,343      1,300           97
Source: OCC data.

Note: Most decisions (93 percent in 2012 and 97 percent in 2013) were decided in the district offices and Large Bank Licensing under
delegated authority. Decisions include approvals, conditional approvals, and denials. NA means not applicable.
a
  Beginning in 2014, the data will be for national banks and federal savings associations combined. Those filings that qualified for the
“expedited review” process are subject to the shorter time frames listed. The longer time frames are the standard benchmarks for more
complex applications. The target time frame may be extended if the OCC needs additional information to reach a decision, permits additional
time for public comment, or processes a group of related filings as one transaction.
b
  For independent national bank charter applications, the target time frame is 120 days. For holding-company-sponsored applications, the
target time frame is 45 days for applications eligible for expedited review and 90 days for all others.




38            Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Figure 3: Change in Bank Control Act, National Banks, FY 2009–FY 2013
(Notices Processed With Disposition)a

            Year                Received              Acted on          Not disapproved              Disapproved            Withdrawn
            2013                               8                    6                         6                       0                     0
            2012                            10                      6                         6                       0                     0
            2011                               4                    6                         6                       0                     0
            2010                               8                    5                         5                       0                     0
            2009                            10                     10                         7                       0                     3
Source: OCC data.

a
    FY 2012 and 2013 data are for national banks and federal savings associations combined.


Figure 4: OCC Enforcement Actions, FY 2013

                                                                                                                    Against institution-
                         Type of enforcement action                             Against institutions                 affiliated parties
    Cease-and-desist orders                                                                              43                                14
    Restitution amount ordered                                              $             3,643,839,269         $                  784,937
    Temporary cease-and-desist orders                                                                      0                                0
    12 USC 1818 civil money penalties                                                                      9                               21
    12 USC 1818 civil money penalties amount assessed                       $                 917,100,000       $                1,539,500
    Flood insurance civil money penalties                                                                13                                 0
    Flood insurance civil money penalties amount assessed                   $                       281,100     $                           0
    Formal agreements                                                                                    31                                 0
    Capital directives                                                                                     0                               NA
    Prompt corrective action directives                                                                    1                               NA
    Individual minimum capital ratio letters                                                             35                                NA
    Safety and soundness orders                                                                            0                               NA
    Memorandums of understanding                                                                           7                               NA
    Commitment letters                                                                                     4                               NA
    Suspension orders                                                                                    NA                                 0
    12 USC 1818 removal/prohibition orders                                                               NA                                16
    12 USC 1829 prohibitions                                                                             NA                                97
    Letters of reprimand                                                                                 NA                                22
    Total                                                                                               143                            170
Source: OCC data

Note: NA means not applicable.


Figure 5: List of Applications Presenting Community Reinvestment Act Issues Decided, FY 2013

    Bank, city, state                                                               Approval date                    Document number
    Union Bank, NA, San Francisco, Calif. (P&A)                                               October 2012          CRA Decision No. 151
    Union Bank, NA, San Francisco, Calif. (merger)                                            October 2012          CRA Decision No. 152
    Capital One, NA, McLean, Va. (merger)                                                     October 2012          CRA Decision No. 153
    Bank of America, NA, Charlotte, N.C. (merger)                                        November 2012              CRA Decision No. 154
    BankUnited, NA, Miami Lakes, Fla. (merger)                                                    March 2013        CRA Decision No. 155
    FirstMerit Bank, NA, Akron, Ohio (merger)                                                      April 2013       CRA Decision No. 156
Source: OCC data



	                                                                          Section Five: Licensing and Enforcement Measures                 39
Section Six
Financial Management
Discussion and Analysis

Letter From the Chief Financial Officer                               nonappropriated agency,
                                                                      to be able to fund this
I am pleased to present the OCC’s financial statements                project using its financial
as an integral part of the Annual Report Fiscal Year                  reserves. In addition to
2013. For FY 2013, our independent auditors again                     the success of this move,
have rendered an unqualified opinion.                                 the OCC also effectively
The OCC remains committed to maintaining a                            relocated the OCC’s
strong internal control environment, which is the                     technical infrastructure
foundation upon which our unqualified audit opinion                   to one modern facility
is built. During the past eight years, the OCC has                    in northern Virginia.
systematically applied the concepts and requirements                  This consolidation was a
outlined in the Office of Management and Budget’s                     tremendous success and
(OMB) Circular A-123, “Management’s Responsibility                    increases the availability
                                                                                                  Thomas R. Bloom, Senior Deputy
for Internal Control, Appendix A—Internal Control                     of the OCC’s information Comptroller for Management and
Over Financial Reporting.” In addition, each year                     technology (IT)             Chief Financial Officer

the OCC strives to identify new ways to improve the                   systems by minimizing
strength of our internal control program, and FY 2013                 unexpected system outages due to facility and other
was no exception.                                                     operational issues, while laying the foundation for the
                                                                      continued modernization of the OCC’s IT systems.
This year, the OCC brought a data analytics approach
into its internal control review process. We used this                Another way the OCC continues to provide diligent
approach to evaluate data for compliance with policies                stewardship over its financial resources is through
and procedures, identify erroneous payments, and                      its procurement process. Not only did we realize
analyze resource usage. The OCC’s administrative data                 $15.7 million in negotiated cost savings, we also
analytics program also has resulted in strengthening                  surpassed the target goals established by the Treasury
compliance with purchase card policies and                            Department for awarding contracts to small businesses,
procedures and in evaluating workload distribution                    small disadvantaged businesses, and women-owned
in the Acquisition Management and Internal Controls                   small businesses. The OCC is proud of its record
units. Continuing into FY 2014, the OCC will look to                  in meeting or exceeding these goals every year and
identify other ways to use data analytics to improve                  remains committed to exceeding the target goals
our internal control environment, while using our                     for other socioeconomic categories, including small
resources more efficiently.                                           businesses that operate in historically underutilized
                                                                      business zones and companies owned by service-
Turning to other FY 2013 accomplishments, the                         disabled veterans.
OCC completed the consolidation of several office
locations into one new headquarters building on time                  The Office of Management (OM) also continues
and on budget. It was important for the OCC, as a                     to execute its Lean Six Sigma (LSS) process
                                                                      improvement program. In FY 2013, the OCC

40	     Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
completed 70 formal and informal improvement                   previous years, in FY 2014 it is being adopted agency-
projects, which resulted in $8.4 million in cost or            wide.
productivity savings. This was supplemented by
more than 800 employee-initiated improvements that             As we look forward to FY 2014, the OCC has the
resulted in an additional $7.1 million of savings and          financial resources it needs to complete its goals, and
productivity. All OM executives have received formal           the public can rest assured that the OCC will continue
LSS training, and the OCC has 71 staff members                 its unwavering commitment to maintaining a climate
certified as Master Black Belts, Black Belts, or Green         of strong internal controls and pursuing a fiscally
Belts. Additionally, in FY 2013 the LSS program                responsible approach in supervising national banks and
has continued working with other OCC departments               federal savings associations.
outside of OM. As part of the LSS effort this year, the
OCC successfully reengineered its Assistant National
Bank Examiner recruitment program, which resulted
in a first-year savings of approximately $4,400 per
new hire and is expected to save close to $800,000                                                  Thomas R. Bloom
in the coming year. In addition, while LSS has been                         Senior Deputy Comptroller for Management
primarily applied to administrative processes in                                           and Chief Financial Officer




	                                                         Section Six: Financial Management Discussion and Analysis	   41
Financial Summary                                                       statements, followed by notes and the auditor’s
                                                                        opinion, begin on page 46.
The OCC received an unqualified opinion on its
FY 2013 and FY 2012 financial statements. The                           The OCC, in accordance with 12 USC 482, establishes
OCC’s principal financial statements have been                          budget authority for a given fiscal year. The total
prepared to report the financial position and results of                budget authority available for use by the OCC in
the agency’s operations, pursuant to the requirements                   FY 2013 was $1,023.0 million, which represents a
of 31 USC 3515(b). While the statements have been                       decrease of $203.1 million, or 16.6 percent, from
prepared from the books and records of the agency                       the $1,226.1 million budget in FY 2012. The OCC
in accordance with generally accepted accounting                        executed $1,004.8 million, or 98.2 percent, of the
principles (GAAP) for federal entities and the formats                  FY 2013 budget compared with $1,140.1 million, or
prescribed by the OMB, the statements are in addition                   93.0 percent, executed in FY 2012.
to the financial reports used to monitor and control
budgetary resources, which are prepared from the                        The Statements of Budgetary Resources, found on
same books and records.                                                 page 49, provide information about how budgetary
                                                                        resources were made available to the OCC for the year
The OCC’s financial statements consist of Balance                       and present the status of these resources and the net
Sheets, the Statements of Net Cost, the Statements of                   outlay of budgetary resources at the end of the year.
Changes in Net Position, the Statements of Budgetary
Resources, and the Statements of Custodial Activity.                    Figure 6 illustrates the OCC’s key components of
The OCC presents the financial statements and                           financial condition and the subsequent narrative
notes on a comparative basis, providing financial                       sections address the OCC’s financial activities in FY
information for FY 2013 and FY 2012. The financial                      2013 and FY 2012.




42      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Figure 6: Key Components of Financial Condition, as of September 30, 2013 (in Thousands)

                                                                                                             Increase / (Decrease)
                                                      2013                        2012                        $               %
    Costs   a


    Total financing sources                      $           31,843        $              31,873        $             (30)     (0.1%)
      Less net cost                                        (29,211)                      (54,209)                 (24,998)    (46.1%)
    Net change of cumulative results of
    operations                                   $            2,632        $             (22,336)       $          24,968     111.8%

    Net positionb
    Assets
      Fund balance with Treasury                 $            3,466        $               8,814        $          (5,348)    (60.7%)
      Investments                                        1,310,072                   1,380,006                    (69,934)     (5.1%)
      Property, plant, and equipment, net                  156,658                       127,568                   29,090      22.8%
    Other                                                     6,671                        3,079                    3,592     116.7%
    Total assets                                 $       1,476,867         $         1,519,467          $         (42,600)     (2.8%)


    Liabilities
      Accounts payable and other
      accrued liabilities                        $           30,705        $              56,755        $         (26,050)    (45.9%)
      Accrual payroll and benefits                           70,417                       87,296                  (16,879)    (19.3%)
      Deferred revenue                                     239,272                       241,348                   (2,086)     (0.9%)
      Other actuarial liabilities                            60,384                       60,611                     (227)     (0.4%)
    Total liabilities                            $         400,778         $             446,010        $         (45,232)    (10.1%)
    Net position                                         1,076,089                   1,073,457                      2,632       0.2%
    Total liabilities and net position           $       1,476,867         $         1,519,467          $         (42,600)     (2.8%)

Source: OCC financial system data.
a
    Statements of Net Cost and Statements of Changes in Net Position.
b
    Balance Sheets.



Cost of Operations                                                      due primarily to a one-time payment of the Pentegra
                                                                        Defined Benefit (DB) Plan assumed from OTS in
The OCC’s net cost of operations is reported on
                                                                        FY 2012 offset by increased payroll and benefits,
the Statements of Net Cost and the Statements of
                                                                        contractual services for systems maintenance, and rent
Changes in Net Position. The OCC uses an activity-
                                                                        cost in FY 2013.
based time reporting system to allocate costs among
the agency’s programs. Costs are further divided into                   Revenues
those resulting from transactions between the OCC
and other federal entities (intragovernmental) and                      The OCC’s operations are funded primarily by
those between the OCC and nonfederal entities (with                     assessments collected from national banks and
the public). The Statements of Net Cost present the full                federal savings associations, from interest received on
cost of operating the OCC’s three major programs—                       investments in U.S. Treasury securities, and from the
supervise, regulate, and charter national banks and                     rent that the CFPB pays the OCC for leasing office
federal savings associations.                                           space.

Total program costs for FY 2013 of $1,038.5 million                     Total FY 2013 revenue of $1,006.7 million reflects
reflect a decrease of $11.1 million, or 1.1 percent,                    a $7.0 million, or 0.7 percent, increase over
from $1,049.6 million in FY 2012. The change was                        FY 2012 revenue of $999.7 million. Total assets under


	                                                                 Section Six: Financial Management Discussion and Analysis          43
the OCC’s supervision rose, as of June 30, 2013, to                        Investments
$10.2 trillion, up 2.0 percent from $10.0 trillion a year
                                                                           On September 30, 2013, investments and related
earlier.
                                                                           interest were $1.3 billion, compared with $1.4 billion
Interest revenue totaled $17.9 million in FY 2013,                         the previous year. The decrease of $100.0 million, or
a decrease of $1.8 million, or 9.1 percent, over the                       7.1 percent, is attributable to the normal funding of the
amount ($19.7 million) reported in FY 2012. This                           OCC’s ongoing operations. The market value of the
decrease is primarily attributable to longer-term                          OCC’s investment portfolio in excess of book value
securities with higher yields maturing and being                           declined this year to $14.4 million from $40.3 million
reinvested at lower rates. Other income includes                           on September 30, 2012. This $25.9 million decrease
revenue received from reimbursable activities with                         in market value (64.3 percent) is primarily attributable
federal entities. Figure 7 shows the OCC’s funding                         to the effects of rising interest rates during FY 2013.
sources for FY 2013 and FY 2012.                                           The OCC invests available funds in non-marketable
                                                                           U.S. Treasury securities issued through the Treasury
Assets                                                                     Department’s Bureau of Public Debt in accordance
The OCC’s assets include both “entity” and “non-                           with the provisions of 12 USC 481 and 12 USC 192.
entity” assets. The OCC uses entity assets, which                          The OCC manages risk by diversifying its portfolio
belong to the agency, to fund operations. Non-entity                       across maturities within established parameters.
assets are assets that the OCC holds on behalf of                          Diversifying maturities of the individual securities
another federal agency. The OCC’s non-entity assets                        is meant to help manage the inherent risk of interest
presented as accounts receivable are CMPs due the                          rate fluctuations. The weighted average maturity of
federal government through court-enforced legal                            the portfolio declined yearover-year to 2.1 years as
actions.                                                                   of September 30, 2013, compared with 2.5 years as
                                                                           of September 30, 2012, because of the investment of
As of September 30, 2013, total assets were                                funds in shorter-term securities during the period to
$1,476.9 million, a decrease of $42.6 million, or                          meet expected cash flow needs.
2.8 percent, from the total assets of $1,519.5 million
reported on September 30, 2012. The main factors                           The OCC’s investment portfolio is composed of
contributing to the net reduction in total assets                          overnight and longer-term securities. The portion
include a decrease of $5.3 million in the fund balance                     of the portfolio comprising longer-term (core)
with Treasury (FBWT), a decrease in investments                            investments as of September 30, 2013, and September
and related interest of $70.0 million used for OCC                         30, 2012, was $771.5 million, or 59.7 percent, and
FY 2013 operating expenses and capital expenditures,                       $846.5 million, or 62.3 percent, respectively. The
and an increase in property and equipment of                               portfolio earned an annual yield for FY 2013 of
$29.1 million. The increase in property and equipment                      1.6 percent, compared with 1.9 percent in FY 2012.
resulted primarily from the addition of assets related                     The OCC calculates annual portfolio yield by dividing
to the leasehold improvement project and equipment                         the total interest earned during the year by the average
purchases for the OCC’s new headquarters building.                         ending monthly book value of investments.


Figure 7: Funding Sources (in Millions)

                                              FY 2013                      FY 2012               Change ($)        Change (%)
 Assessments                              $               973.1      $               963.6   $            9.5                 1.0%
 Interest and other income                                 33.6                       36.1               (2.5)               (7.0%)
 Total revenue                            $           1,006.7        $               999.7   $            7.0                 0.7%

Source: OCC financial system data.




44        Office of the Comptroller of the Currency   |    Annual Report Fiscal Year 2013
Liabilities                                                     The OCC reserves a significant portion of the net
                                                                position to cover foreseeable but rare events or
The OCC’s liabilities represent the resources due to
                                                                new requirements and opportunities. The OCC also
others or held for future recognition and are composed
                                                                sets aside funds for ongoing operations to cover
largely of deferred revenue, accrued liabilities, and
                                                                undelivered orders, the consumption of assets, and
accounts payable. Deferred revenue represents the
                                                                capital investments. The establishment of financial
unearned portion of semiannual assessments that have
                                                                reserves is integral to the effective stewardship of
been collected but not earned.
                                                                the OCC’s resources, particularly because the agency
As of September 30, 2013, total liabilities were                does not receive congressional appropriations. The
$400.8 million, a net decrease of $45.2 million, or             contingency reserve supports the OCC’s ability to
10.1 percent, from total liabilities of $446.0 million          accomplish its mission by being available to reduce the
on September 30, 2012. The majority of this decrease            impact on the OCC’s operations of significant revenue
can be attributed to the $43.0 million, or 29.8 percent,        fluctuations.
decrease in accounts payable and accrued liabilities
                                                                The asset replacement reserve is for the replacement
year-over-year, which was primarily the result of
                                                                of information technology investments, leasehold
accruals related to the leasehold improvement project
                                                                improvements, and furniture replacement for future
for the OCC’s new headquarters building incurred in
                                                                years. The target level for the replacement reserve
FY 2012.
                                                                is established annually based on the gross value of
Net Position                                                    existing property and equipment plus a growth-rate
                                                                factor and a margin for market cost adjustments. In
The OCC’s net position of $1,076.1 million as of                FY 2012, the asset replacement reserve was used
September 30, 2013, and $1,073.5 million as of                  to pay for leasehold improvements and relocation
September 30, 2012, represents the cumulative                   costs as part of the OCC’s efforts to consolidate
net excess of the OCC’s revenues over the cost of               several office locations in Washington, D.C., into one
operations. The net position is presented on both the           headquarters building.
Balance Sheets and the Statements of Changes in Net
Position.                                                       Figure 8 shows the OCC’s composition of net position
                                                                for FY 2013 and FY 2012.




	                                                          Section Six: Financial Management Discussion and Analysis	   45
Financial Statements
                                 Office of the Comptroller of the Currency
                                               Balance Sheets
                                            As of September 30, 2013 and 2012
                                                                (in Thousands)


                                                                                       2013                   2012

Assets
     Intragovernmental:
        Fund balance with Treasury (Note 2)                                      $              3,466     $            8,814
        Investments and related interest (Note 3)                                          1,310,072             1,380,006
        Accounts receivable (Note 4)                                                            1,170                  2,035
        Other assets                                                                             165                    558
     Total intragovernmental                                                               1,314,873             1,391,413


     Accounts receivable, net (Note 4)                                                          5,290                   471
     Property and equipment, net (Note 5)                                                     156,658                127,568
     Other assets                                                                                 46                     15

Total assets                                                                     $         1,476,867      $      1,519,467


Liabilities
     Intragovernmental:
        Accounts payable and other accrued liabilities                           $              6,558     $            7,913
     Total intragovernmental                                                                    6,558                  7,913


     Accounts payable                                                                           1,617                  3,571
     Accrued payroll and benefits                                                              21,458                 40,930
     Accrued annual leave                                                                      48,959                 46,366
     Other accrued liabilities                                                                 22,530                 45,271
     Deferred revenue                                                                         239,272                241,348
     Other actuarial liabilities (Note 8)                                                      60,384                 60,611
     Total liabilities                                                                        400,778                446,010


     Net position (Note 9)                                                                 1,076,089             1,073,457

Total liabilities and net position                                               $         1,476,867      $      1,519,467




                             The accompanying notes are an integral part of these financial statements.

46        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
                                Office of the Comptroller of the Currency
                                         Statements of Net Cost
                                For the Years Ended September 30, 2013 and 2012
                                                          (in Thousands)



                                                                                       2013                         2012
    Program costs:
      Supervise
         Intragovernmental                                                        $           121,456          $           115,089
         With the public                                                                      769,079                      780,112

      Subtotal—supervise                                                          $           890,535          $           895,201


      Regulate
         Intragovernmental                                                       $             18,235          $            17,722
         With the public                                                                      110,029                      114,612

      Subtotal—regulate                                                          $            128,264          $           132,334


      Charter
         Intragovernmental                                                       $              2,852          $             2,995
         With the public                                                                       16,842                       19,071

      Subtotal—charter                                                           $             19,694          $            22,066


    Total program costs                                                          $         1,038,493           $          1,049,601
      Less earned revenues not attributed to programs                                     (1,006,665)                     (999,727)


    Net program costs before gain/loss from changes in assumptions                $            31,828          $            49,874
      Actuarial (gain)/loss (Note 8)                                                           (2,617)                       4,335


    Net cost of operations (Note 10)                                              $            29,211          $            54,209




                             The accompanying notes are an integral part of these financial statements.

	                                                             Section Six: Financial Management Discussion and Analysis          47
                               Office of the Comptroller of the Currency
                                Statements of Changes in Net Position
                               For the Years Ended September 30, 2013 and 2012
                                                               (in Thousands)



                                                                                              2013                  2012


Beginning balances                                                                        $      1,073,457      $    1,095,793


Other financing sources:

     Transfer out without reimbursement                                                                    0                (434)
     Imputed financing (Note 11)                                                                      31,843               32,307


Net cost of operations                                                                               (29,211)          (54,209)


Net change                                                                                             2,632           (22,336)

Ending balances                                                                           $      1,076,089      $    1,073,457




                           The accompanying notes are an integral part of these financial statements.

48       Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
                                 Office of the Comptroller of the Currency
                                   Statements of Budgetary Resources
                                For the Years Ended September 30, 2013 and 2012
                                                           (in Thousands)



                                                                                    2013                              2012

    Budgetary resources:
      Unobligated balance, brought forward, October 1                       $            1,087,149            $             1,162,804
      Adjustment to unobligated balance brought forward, October 1                                0                                 0
      Unobligated balance from prior year budget authority, net                          1,087,149                          1,162,804
      Spending authority from offsetting collections                                     1,005,453                          1,001,516
    Total budgetary resources                                               $            2,092,602            $             2,164,320

    Status of budgetary resources:
      Obligations incurred                                                  $            1,016,211            $             1,077,171
      Exempt from apportionment                                                          1,076,391                          1,087,149
      Total unobligated balance, end of year                                             1,076,391                          1,087,149
    Total budgetary resources                                               $            2,092,602            $             2,164,320

    Change in obligated balance:
      Unpaid obligation balance brought forward, October 1                  $              284,513            $              251,164
      Obligations incurred                                                               1,016,211                          1,077,171
      Outlay (gross)                                                                    (1,076,988)                        (1,043,822)
      Unpaid obligation, end of year                                                       223,736                           284,513
      Uncollected payment, federal source brought forward, October 1                        (5,978)                            (7,493)
      Change in uncollected payment, federal source                                           1,232                             1,515
      Uncollected payment, federal source, end of year                                      (4,746)                            (5,978)


      Memorandum (non-add) entries
      Obligated balance, start of year                                      $              278,535            $              243,671
      Obligated balance, end of year                                        $              218,990            $              278,535


    Budget authority and outlays, net:
      Budget authority, gross                                               $            1,005,453            $             1,001,516
      Actual offsetting collections                                                     (1,006,685)                        (1,003,031)
      Change in uncollected payment from federal source                                       1,232                             1,515
      Budget authority, net                                                                       0                                 0
      Outlay, gross                                                                      1,076,988                          1,043,822
      Actual offsetting collections                                                     (1,006,685)                        (1,003,031)
      Agency outlay, net                                                    $               70,303             $               40,791




                              The accompanying notes are an integral part of these financial statements.

	                                                              Section Six: Financial Management Discussion and Analysis            49
                                Office of the Comptroller of the Currency
                                     Statements of Custodial Activity
                                For the Years Ended September 30, 2013 and 2012
                                                                (in Thousands)



                                                                                           2013                 2012
Revenue activity:
     Sources of cash collections
        Civil money penalties                                                    $                917,538   $          $55,358
     Accrual adjustment                                                                             1,076                 (68)
     Total custodial revenue                                                                      918,614               55,290


Disposition of custodial revenue
     Transferred to Treasury                                                                      917,538               55,358
     (Increase)/Decrease in amounts yet to be transferred                                           1,076                 (68)
     Total disposition for custodial revenue                                                      918,614               55,290


Net custodial activity                                                           $                     0    $               0




                            The accompanying notes are an integral part of these financial statements.

50        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Notes to the Financial Statements                            of Standards Issued by the Financial Accounting
                                                             Standards Board.”
Note 1—Significant Accounting Policies
Reporting Entity                                             The OCC’s financial statements consist of Balance
                                                             Sheets, the Statements of Net Cost, the Statements of
The OCC was created as a bureau within the Treasury          Changes in Net Position, the Statements of Budgetary
Department by an act of Congress in 1863. The                Resources, and the Statements of Custodial Activity.
mission of the OCC was to establish and regulate             The OCC presents its financial statements on a
a system of federally chartered national banks.              comparative basis, providing information for FY 2013
The National Currency Act of 1863, rewritten                 and FY 2012.
and reenacted as the National Bank Act of 1864,
authorized the OCC to supervise national banks and           The financial statements reflect both the accrual and
to regulate the lending and investment activities of         budgetary bases of accounting. Under the accrual
federally chartered institutions. With the passage of        basis of accounting, revenues are recognized when
Dodd–Frank on July 21, 2010, the OCC also oversees           earned, and expenses are recognized when a liability
federally chartered savings associations.                    is incurred, without regard to cash receipt or payment.
                                                             The budgetary method recognizes the obligation of
The financial statements report on the OCC’s three           funds according to legal requirements, which in many
major programs: supervise, regulate, and charter             cases is recorded before the occurrence of an accrual-
national banks and federal savings associations.             based transaction. Budgetary accounting is essential
The OCC’s major programs support the agency’s                for compliance with legal constraints and controls over
overall mission by ensuring a safe and sound system          the use of federal funds.
of national banks and federal savings associations;
providing fair access to financial services and fair         In accordance with GAAP, the preparation of financial
treatment of national bank and federal savings               statements requires management to make estimates
association customers; maintaining a flexible legal          and assumptions that affect the reported amounts
and regulatory framework that enables the national           of assets and liabilities, the disclosure of contingent
banks and federal savings associations to provide a          assets and liabilities at the date of the financial
full, competitive array of financial services consistent     statements, and the reported amounts of revenue and
with statutory and prudential safety and soundness           expense during the reporting period. Such estimates
constraints; and having a competent, highly motivated,       and assumptions could change in the future as more
and diverse workforce that makes effective use of the        information becomes known, which could affect the
OCC’s resources.                                             amounts reported and disclosed herein.
Basis of Accounting and Presentation                         Throughout these financial statements, assets,
The OCC’s financial statements are prepared from             liabilities, earned revenues, and costs have been
the agency’s accounting records in conformity                classified according to the entity responsible for these
with GAAP as set forth by the Federal Accounting             transactions. Intragovernmental earned revenues are
Standards Advisory Board (FASAB). The OCC’s                  collections or accruals of revenue from other federal
financial statements are presented in accordance with        entities, and intragovernmental costs are payments or
the form and content guidelines established by the           accruals of expenditures to other federal entities.
OMB in Circular No. A-136, “Financial Reporting              Revenues and Other Financing Sources
Requirements.”
                                                             The OCC derives its revenue primarily from
In addition, the OCC applies financial accounting and        assessments and fees paid by national banks, federal
reporting standards issued by the Financial Accounting       savings associations, and the federal branches of
Standards Board (FASB) only as outlined in Statement         foreign banks, from income on investments in non-
of Federal Financial Accounting Standards (SFFAS)            marketable U.S. Treasury securities, and from the
No. 34, “The Hierarchy of Generally Accepted                 rent that the CFPB pays the OCC for leasing office
Accounting Principles,” including the “Application           space. The OCC does not receive congressional

	                                                       Section Six: Financial Management Discussion and Analysis   51
appropriations to fund any of the agency’s                              annually or as needed to reflect the most current
operations. Therefore, the OCC has no unexpended                        estimate of accounts that are likely to be uncollectible.
appropriations.                                                         Accounts receivable from the public are reduced by an
                                                                        allowance for loss on doubtful accounts (see Note 4).
By federal statute 12 USC 481, the OCC’s funds are
maintained in a U.S. government trust revolving fund.                   Property and Equipment
The funds remain available to cover the annual costs                    Property and equipment as well as internal-use
of the OCC’s operations in accordance with policies                     software are accounted for in accordance with
established by the Comptroller of the Currency.                         SFFAS No. 6, “Accounting for Property, Plant, and
Funds From Dedicated Collections                                        Equipment,” and SFFAS No. 10, “Accounting for
                                                                        Internal Use Software.”
Funds from dedicated collections are financed by
specifically identified revenues, often supplemented by                 Property and equipment purchases and additions are
other financing sources, which remain available over                    stated at cost. The OCC expenses purchases that do not
time. These specifically identified revenues and other                  meet the capitalization criteria, such as normal repairs
financing sources are required by statute to be used for                and maintenance, when received or incurred.
designated activities, benefits, or purposes, and must
be accounted for separately from the government’s                       In addition, property and equipment are depreciated
general revenues. In accordance with FASAB                              or amortized, as applicable, over the estimated useful
SFFAS No. 43, “Funds From Dedicated Collections:                        lives using the straight-line method and are removed
Amending Statement of Federal Financial Accounting                      from the OCC’s asset accounts in the period of
Standards 27, Identifying and Reporting Earmarked                       disposal, retirement, or removal from service. Any
Funds,” all of the OCC’s revenue meets this criterion                   difference between the book value of the property
and constitutes funds from dedicated collections.                       and equipment and amounts realized is recognized
                                                                        as a gain or loss in the same period that the asset is
Fund Balance With Treasury                                              removed (see Note 5).
The Treasury Department processes the OCC’s cash                        Liabilities
receipts and disbursements. The OCC’s Statements of
Budgetary Resources reflect the status of the agency’s                  The OCC records liabilities for amounts that are likely
FBWT (see Note 2).                                                      to be paid because of events that have occurred as of
                                                                        the relevant Balance Sheet dates. The OCC’s liabilities
Investments                                                             consist of routine operating accounts payable, accrued
It is the OCC’s policy to invest available funds in                     payroll and benefits, and deferred revenue. The OCC’s
accordance with the provisions of 12 USC 481 and                        liabilities represent the amounts owed or accrued
12 USC 192. The OCC invests available funds in U.S.                     under contractual or other arrangements governing the
government account series (GAS) Treasury securities,                    transactions, including operating expenses incurred
which may include one-day certificates, bills, and                      but not paid. The OCC accounts for liabilities in
notes. The OCC does not invest funds with state or                      accordance with SFFAS No. 5, “Accounting for
national banks. The OCC has the positive intent and                     Liabilities of the Federal Government.”
ability to hold all U.S. Treasury securities to maturity
                                                                        Accounts Payable
in accordance with FASB Accounting Standards
Codification (ASC) Topic 320, “Investments—Debt                         Payments have been accelerated to be made within
and Equity Securities” (see Note 3).                                    15 days in accordance with OMB Memorandum
                                                                        M-12-16, issued July 11, 2012. Interest penalties are
Accounts Receivable
                                                                        paid when payments are late. Discounts are taken
In accordance with SFFAS No. 1, “Accounting for                         when cost effective and when the invoices are paid
Selected Assets and Liabilities,” the OCC updates the                   within the discount period.
“allowance for loss on accounts receivable” account



52      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Accrued Annual Leave                                         DB Plan covers some of the employees transferred
                                                             from the OTS and is closed to new entrants. The OCC
In accordance with SFFAS No. 5, annual leave is              is committed to adhering to sound financial policies
accrued and funded by the OCC as it is earned, and           and management oversight of the plan to ensure its
the accrual is reduced as leave is taken or paid. Each       sustainability for current and future retirees.
year, the balance in the accrued annual leave account
is adjusted to reflect actual leave balances with current    Thrift Savings and 401(k) Plans
pay rates. Sick leave and other types of leave are
expensed as incurred.                                        The OCC’s employees are eligible to participate in
                                                             the federal Thrift Savings Plan. OCC employees also
Deferred Revenue                                             can elect to contribute a portion of their base pay to
                                                             the OCC-sponsored 401(k) plan, subject to Internal
The OCC’s activities are primarily financed by               Revenue Service regulations that apply to employee
assessments on assets held by national banks, federal        contributions in both the federal Thrift Savings Plan
savings associations, and the federal branches of            and the OCC-sponsored 401(k) plan.
foreign banks. These assessments are due March 31
and September 30 of each year, based on their asset          As required by law, for OTS employees transferred to
balances as of December 31 and June 30, respectively.        the OCC, the OCC continues to offer a separate 401(k)
Assessments are paid mid-cycle and are recognized as         plan. The amount of each participant’s matching
earned revenue on a straight-line basis. The unearned        contribution is based on the applicable retirement
portions of collected assessments are classified as          system under which each participant is covered.
deferred revenue.
                                                             Federal Employees Health Benefits and Federal
Employment Benefits                                          Employees’ Group Life Insurance
Retirement Plans
                                                             Employees and retirees of the OCC are eligible to
All of the OCC’s employees participate in one of three       participate in the Federal Employees Health Benefit
retirement systems—the Civil Service Retirement              (FEHB) and Federal Employees’ Group Life Insurance
System (CSRS), the Federal Employees Retirement              (FEGLI) plans administered by the OPM that involve
System (FERS), or the Pentegra DB Plan. The CSRS             a cost sharing of biweekly coverage premiums by
and FERS are administered by the Office of Personnel         employee and employer. The OCC does not fund
Management (OPM). Pursuant to the enactment of               post-retirement benefits for these programs. Instead,
Public Law 99-335, which established FERS, most              the OCC’s financial statements recognize an imputed
OCC employees hired after December 31, 1983, are             financing source and corresponding expense that
automatically covered by FERS and Social Security.           represent the OCC’s share of the cost to the federal
Employees hired before January 1, 1984, are covered          government of providing these benefits to all eligible
by the CSRS, with the exception of those who, during         OCC employees.
the election period, joined FERS.
                                                             Post-Retirement Life Insurance Benefit Plan
The OCC does not report CSRS or FERS assets or
                                                             The OCC sponsors a life insurance benefit plan for
accumulated plan benefits that may be applicable to its
                                                             current and retired employees. On July 29, 2012,
employees in its financial statements; these amounts
                                                             former OTS employees were converted to the OCC
are reported by OPM. Although the OCC reports no
                                                             life insurance benefit plan. This plan is a defined
liability for future payments to employees under these
                                                             benefit plan for which the benefit is earned over the
programs, the federal government is liable for future
                                                             period from the employee’s date of hire to the date on
payments to employees through the various agencies
                                                             which the employee is assumed to retire. The valuation
administering these programs. The OCC recognizes
                                                             of the plan is conducted in accordance with generally
future benefits costs via imputing to OPM.
                                                             accepted actuarial principles and practices, including
The OCC assumed the role of benefit administrator            the applicable Actuarial Standards of Practice as issued
for the Pentegra DB Plan in FY 2011. The Pentegra            by the Actuarial Standards Board. Specifically, the

	                                                       Section Six: Financial Management Discussion and Analysis     53
OCC uses the actuarial cost method as outlined in                       Note 2—Fund Balance With Treasury
FASB ASC Topic 715, “Compensation—Retirement
                                                                        The status of the FBWT represents the budgetary
Benefits,” to determine costs for its retirement
                                                                        resources that support the FBWT and is a
plans. Gains or losses owing to changes in actuarial
                                                                        reconciliation between budgetary and proprietary
assumptions are amortized over the service life of the
                                                                        accounts. The OCC’s FBWT comprises one U.S.
plan. The actuarial assumptions and methods used
                                                                        Treasury fund symbol designated as a trust fund and
in calculating actuarial amounts comply with the
                                                                        established by 12 USC 481 that governs the collection
requirements for post-retirement benefits other than
                                                                        and use of assessments and other funds by the OCC.
pensions as set forth in FASB ASC Topic 715 and for
health benefit plans as set forth in American Institute                 The OCC’s FBWT consists of unobligated and
of Certified Public Accountants Statement of Position                   obligated balances that reflect the budgetary authority
92-6.                                                                   remaining for disbursement against current or future
Custodial Revenues and Collections                                      obligations. The unobligated balance represents the
                                                                        cumulative amount of budgetary authority that has not
Non-entity receivables, liabilities, and revenue are                    been set aside to cover outstanding obligations and
recorded as custodial activity and include amounts                      is classified as available for future OCC use without
collected for fines, CMPs, and related interest                         further congressional action. The obligated balance not
assessments. Revenues are recognized as cash                            yet disbursed represents funds that have been obligated
collected that will be transferred to the General Fund                  for goods that have not been received or services that
of the U.S. Treasury at the end of the fiscal year.                     have not been performed. It also represents goods and
Effects of Recent Accounting                                            services that have been delivered or received but for
Pronouncements                                                          which payment has not been made. The nonbudgetary
                                                                        FBWT account represents adjustments to budgetary
Presentation of the OCC’s financial statement
                                                                        accounts that do not affect the FBWT. The OCC’s
disclosures was affected by the publication of
                                                                        balance represents investment accounts that reduce the
SFFAS No. 43, “Funds From Dedicated Collections:
                                                                        status of the FBWT.
Amending Statement of Federal Financial Accounting
Standards 27, Identifying and Reporting Earmarked                       As of September 30, 2013, there were no unreconciled
Funds.” All of the OCC’s sources of revenue are                         differences between U.S. Treasury records and
characteristic of funds from dedicated collections as                   balances reported on the OCC’s general ledger.
outlined in SFFAS No. 43. Accordingly, Significant
Accounting Policies Note 1 and its subparagraphs                        The figure below depicts the OCC’s FBWT amounts
include the appropriate disclosures effective for FY                    for FY 2013 and FY 2012.
2013.

Fund Balance With Treasury (in Thousands)
                                                                                 FY 2013                    FY 2012
Fund balance
Trust fund                                                                 $                  3,466    $              8,814


Status of fund balance with Treasury
Unobligated balance—available                                              $              1,076,391    $         1,087,149
Obligated balance not yet disbursed                                                        218,990                 278,535
Non-budgetary fund balance with Treasury                                                 (1,291,915)            (1,356,870)
Total                                                                      $                  3,466    $              8,814




54      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Note 3—Investments and Related Interest                     million on September 30, 2012. The overall portfolio
                                                            earned an annual yield of 1.6 percent for FY 2013 and
The OCC’s investments are stated at amortized
                                                            1.9 percent for FY 2012.
cost and the related accrued interest. Premiums
and discounts are amortized over the term of the            The yield-to-maturity on the non-overnight portion
investment using the effective interest method.             of the OCC’s investment portfolio ranged from
The fair market value of investment securities was          0.2 percent to 4.2 percent in FY 2013 and from 0.2
$1,320.9 million on September 30, 2013, and $1,416.3        percent to 4.5 percent in FY 2012.


FY 2013 Investments and Related Interest (in Thousands)
                                                                       Amortized
                                                   Amortization        (premium)        Investments,       Market value
                                      Cost           method             discount             net            disclosure
Intragovernmental securities
    Non-marketable market-based   $   1,321,091 Effective interest   $      (14,595)    $    1,306,496 $          1,320,881
    Accrued interest                      3,576                                     0             3,576              3,576
Total intragovernmental
investments                       $   1,324,667                      $      (14,595)    $    1,310,072 $          1,324,457


FY 2012 Investments and Related Interest (in Thousands)
                                                                       Amortized
                                                   Amortization        (premium)        Investments,       Market value
                                      Cost           method             discount             net            disclosure
Intragovernmental securities
    Non-marketable market-based   $   1,386,220 Effective interest   $      (10,158)    $    1,376,062 $          1,416,347
    Accrued interest                      3,944                                     0             3,944              3,944
Total intragovernmental
investments                       $   1,390,164                      $      (10,158)    $    1,380,006 $          1,420,291




	                                                     Section Six: Financial Management Discussion and Analysis          55
Note 4—Accounts Receivable                                              assessed against people, national banks, or federal
                                                                        savings associations for violations of law, regulation,
As presented in the OCC’s Balance Sheets, accounts
                                                                        and orders; unsafe or unsound practices; and breaches
receivable represent monies due from the public for
                                                                        of fiduciary duty. Because CMPs are not debts due
services and goods provided that are retained by the
                                                                        the OCC, the amount outstanding does not enter into
OCC upon collection. The amounts shown for federal
                                                                        the calculation for the allowance for uncollectible
receivables represent pension sharing costs for OTS
                                                                        accounts. The OCC collected $917.5 million and
employees transferred to other federal agencies rather
                                                                        $55.4 million in CMP non-entity revenue as of
than to the OCC. Also included are CMP amounts
                                                                        September 30, 2013 and 2012, respectively.

FY 2013 Accounts Receivable (in Thousands)
                                                                                 Allowance for            Accounts receivable,
                                                        Gross                uncollectible accounts              net
Federal receivables                         $                       1,170      $                      0      $             1,170
Civil money penalty receivables                                     1,493                             0                    1,493
Nonfederal receivables                                              3,822                       (25)                       3,797
Total accounts receivable                   $                       6,485      $                (25)         $             6,460


FY 2012 Accounts Receivable (in Thousands)
                                                                                 Allowance for            Accounts receivable,
                                                        Gross                uncollectible accounts              net
Federal receivables                         $                       2,035      $                      0       $            2,035
Civil money penalty receivables                                       417                             0                     417
Nonfederal receivables                                                 79                       (25)                         54
Total accounts receivable                   $                       2,531      $                (25)          $            2,506




56      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Note 5—Property and Equipment, Net                            as incurred. All other property and equipment are
                                                              depreciated or amortized, as applicable, on a straight-
Property and equipment purchased at a cost greater
                                                              line basis over the estimated useful lives.
than or equal to the noted thresholds below with useful
lives of three years or more are capitalized at cost and      For FY 2013 and FY 2012, the OCC reported
depreciated or amortized, as applicable. Depreciation         $40.3 million and $2.2 million, respectively, of fully
is expensed on a straight-line basis over the estimated       depreciated assets or expired leasehold assets removed
useful life of the asset with the exception of leasehold      from service. In FY 2013, the OCC recognized a
improvements. Leasehold improvements are amortized            loss of $8,400 on asset disposal. The figures below
on a straight-line basis over the lesser of the terms of      summarize property and equipment balances as of
the related leases or the estimated useful lives. Land,       September 30, 2013 and 2012.
leasehold improvements in development, and internal-
use software in development are not depreciated.              FY 2013 and FY 2012 assets include land and a
Major alterations and renovations, including leasehold        building. The building is a rental-income property that
and land improvements, are capitalized, while                 the OCC uses to supplement its operating budget (see
maintenance and repair costs are charged to expenses          Note 6).


FY 2013 Property and Equipment, Net (in Thousands)
                                                                                            Accumulated
                                        Capitalization   Useful life                        depreciation/        Net book
    Class of assets                      threshold       (in years)            Cost         amortization          value
    Land                                           NA              NA      $       7,101     $            0     $      7,101
    Building                                       50               50           49,188            (33,918)           15,270
    Leasehold improvements                         50            5-20           106,729            (27,913)           78,816
    Equipment                                      50            3-10             49,437           (31,364)           18,073
    Internal-use software                         500                  5        102,726            (71,347)           31,379
    Internal-use software—development             500              NA              5,513                  0            5,513
    Leasehold improvements—
    development                                    50              NA                 506                 0             506
    Total                                                                  $    321,200      $   (164,542)      $    156,658


FY 2012 Property and Equipment, Net (in Thousands)
                                                                                            Accumulated
                                        Capitalization   Useful life                        depreciation/        Net book
    Class of assets                      threshold       (in years)            Cost         amortization          value
    Land                                           NA              NA      $       7,101     $            0     $     $7,101
    Building                                       50               50            49,188           (32,865)           16,323
    Leasehold improvements                         50            5-20           103,553            (58,049)           45,504
    Equipment                                      50            3-10             40,775           (26,882)           13,893
    Internal-use software                         500                  5          80,546           (65,275)           15,271
    Internal-use software—development             500              NA             18,627                  0           18,627
    Leasehold improvements—
    development                                    50              NA             10,849                  0           10,849
    Total                                                                  $    310,639      $   (183,071)      $    127,568

Note: NA means not applicable.




	                                                        Section Six: Financial Management Discussion and Analysis          57
Note 6—Rental Income                                                    Note 7—Leases
In FY 2012, the OCC entered into a 20-year occupancy                    The OCC leases equipment and office space for its
agreement with the CFPB for a portion of the building                   headquarters operations in Washington, D.C., and for
the OCC owns. The OCC also has non-cancellable                          district and field operations. During FY 2013, the OCC
operating leases for additional space in that building                  entered into two new lease occupancy agreements that
and continues to receive rental income from building                    ranged between 48 and 169 months. All of the OCC’s
tenants. These leases expire at various dates through                   leases are treated as operating leases. All annual lease
2021, and some provide renewal options. The leases                      costs under the operating leases are included in the
provide for annual base rent and additional rents for                   Statements of Net Cost.
building operating expenses. Some leases also provide
for fixed future increases in rents over the term of the                The future minimum lease payments to be made
lease.                                                                  through FY 2019 and thereafter, not including
                                                                        renewals, are shown below.
The future minimum rentals to be received through
FY 2019 and thereafter, not including renewals, are                     FY 2013 Future Lease Payments (in Thousands)
shown below.                                                             Year                                        Amount
                                                                         2014                                    $      56,367
FY 2013 Future Rental Income (in Thousands)                              2015                                           56,242
Year                                                Amount               2016                                           56,278
2014                                           $           12,313        2017                                           51,504
2015                                                       12,287        2018                                           48,492
2016                                                       12,534
                                                                         2019 and beyond                               332,934
2017                                                       12,678
                                                                         Total                                   $     601,817
2018                                                       12,934
2019 and beyond                                          197,461
                                                                        FY 2012 Future Lease Payments (in Thousands)
Total                                          $         260,207
                                                                         Year                                        Amount
                                                                         2013                                    $      68,431
FY 2012 Future Rental Income (in Thousands)
                                                                         2014                                           54,039
Year                                                Amount
                                                                         2015                                           49,694
2013                                           $           12,058
                                                                         2016                                           47,344
2014                                                       12,313
                                                                         2017                                           48,914
2015                                                       12,287
                                                                         2018 and beyond                               378,267
2016                                                       12,534
                                                                         Total                                   $     646,689
2017                                                       12,678
2018 and beyond                                          210,394
Total                                          $         272,264




58      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Note 8—Other Actuarial Liabilities
The OCC’s other actuarial liabilities are reported
on the Balance Sheets and include the following
components.

Actuarial Liabilities (in Thousands)
    Component                                                          FY 2013                             FY 2012
    Post-retirement life insurance benefits                  $                        53,258       $                       54,101
    Federal Employees’ Compensation Act                                                  6,298                              5,825
    Pentegra Defined Benefit Plan                                                         828                                   685
    Total actuarial liabilities                              $                        60,384       $                       60,611



Post-Retirement Life Insurance Benefits                           expenses are recognized as program costs in the
                                                                  Statements of Net Cost. Any gains or losses from
The OCC sponsors a life insurance benefit plan for                changes in long-term assumptions used to measure
current and retired employees. The weighted-average               liabilities for post-retirement life insurance benefits are
discount rate used in determining the accumulated                 displayed separately on the Statements of Net Cost, as
post-retirement benefit obligation was 5.1 percent.               required.
Gains or losses owing to changes in actuarial
assumptions are amortized over the service life of the            The following table presents a reconciliation of the
plan.                                                             beginning and ending post-retirement life insurance
                                                                  liability and provides material components of the
Net periodic post-retirement benefit costs for life               related expenses.
insurance provisions under the plans include the
components shown on this page. The total benefit


Reconciliation of Beginning and Ending Post-Retirement Liability and the Related Expense (in Thousands)
    Change in actuarial and accrued benefits                         FY 2013                              FY 2012
    Actuarial post-retirement liability beginning balance     $                54,101               $               47,732
    Actuarial expense
       Normal cost                                                              1,226                                   1,153
       Interest on the liability balance                                        2,351                                   2,280
    Actuarial (gain)/loss
       From experience                                                          2,621                                   (422)
       From assumption changes                                                 (5,238)                                  4,757
    Prior service costs                                                              0                                     0
       Total expense                                                              960                                   7,768
    Less amounts paid                                                          (1,803)                              (1,399)
    Actuarial post-retirement liability ending balance        $                53,258               $               54,101




	                                                           Section Six: Financial Management Discussion and Analysis             59
Federal Employees’ Compensation Act                                      administrator for a legacy retirement system—the
                                                                         Pentegra DB Plan. The Pentegra DB Plan is a system
The Federal Employees’ Compensation Act provides                         in which all costs are paid by the employer into one
income and medical cost protection to cover federal                      general account. At retirement, employees may either
civilian employees injured on the job, employees who                     receive a lump sum payment or opt for an annuity/
have incurred a work-related occupational disease, and                   lump sum split.
beneficiaries of employees whose death is attributable
to a job-related injury or occupational disease. Claims                  As of September 30, 2013 and 2012, the OCC’s total
incurred for benefits for OCC employees covered                          liability to the Pentegra DB Plan was $0.8 million and
under the Federal Employees’ Compensation Act are                        $0.7 million, respectively.
administered by the U.S. Department of Labor and
later billed to the OCC. The FY 2013 present values                      Note 9—Net Position
of these estimated outflows are calculated using a                       Net position represents the net result of operations
discount rate in the first year of 2.7 percent for wage                  since inception and includes cumulative amounts
benefits and 2.3 percent for medical benefits, and                       related to investments in capitalized assets held by the
rates of 3.1 percent and 2.9 percent, respectively, in                   OCC. The OCC sets aside a portion of its net position
subsequent years. For FY 2012 the discount rates for                     as contingency and asset replacement reserves for use
wage and medical benefits were 2.3 percent in the first                  at the Comptroller’s discretion. In addition, funds are
year and 3.1 percent in subsequent years.                                set aside to cover the cost of ongoing operations.
Pentegra Defined Benefit Plan                                            The figure below reflects balances for FY 2013 and
                                                                         FY 2012.
In accordance with the provisions of Dodd–Frank,
in FY 2012 the OCC assumed the role of benefit

Net Position Availability (in Thousands)
Component                                                               FY 2013                             FY 2012
Contingency reserve                                        $                              659,844   $                    648,463
Asset replacement reserve                                                                 111,600                        111,600
Set aside for ongoing operations:
     Undelivered orders                                                                    85,455                        122,505
     Consumption of assets                                                                171,450                        147,334
     Capital investments                                                                   47,740                         43,555
Net position                                               $                         1,076,089      $                  1,073,457




60       Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Note 10—Net Cost of Operations                               Gains and Losses from Changes in Assumptions and
                                                             Selecting Discount Rates and Valuation Dates.” The
The Net Cost of Operations represents the OCC’s
                                                             imputed financing sources for net cost of operations
operating costs deducted from assessments and fees
                                                             are reported on the Statements of Changes in Net
paid by banks and other income earned. The operating
                                                             Position and in Note 12, Reconciliation of Net Cost of
costs include the gain or loss from actuarial experience
                                                             Operations to Budget.
and assumption changes per the guidance in SFFAS
No. 33, “Pensions, Other Retirement Benefits, and            The following figure illustrates the OCC’s operating
Other Postemployment Benefits: Reporting the                 expense categories for FY 2013 and FY 2012.

Net Cost of Operations by Expense Category (in Thousands)
                                                                  FY 2013                              FY 2012
    Personnel compensation and benefits                 $                      691,853      $                        741,516
    Contractual services                                                       128,013                               124,823
    Rent, communication, and utilities                                          80,606                                61,513
    Travel and transportation of persons and things                             60,746                                55,082
    Imputed costs                                                               31,843                                32,307
    Depreciation                                                                21,807                                22,554
    Other                                                                       21,008                                16,141
    Total                                               $                    1,035,876      $                       1,053,936




Note 11—Imputed Costs                                        the current year salary or number of employees, as
and Financing Sources                                        applicable, to provide an estimate of the imputed
                                                             financing that OPM trust funds will provide for each
In accordance with SFFAS No. 5, “Accounting for
                                                             agency.
Liabilities of the Federal Government,” federal
agencies must recognize the portion of employees’            The imputed costs categories for FY 2013 and
pension and other retirement benefits to be paid             FY 2012 are listed in the table below. These imputed
by OPM trust funds. These amounts are recorded               costs are included on the Statements of Net Cost. The
as imputed costs and imputed financing for other             financing sources absorbed by the OPM are reflected
agencies. Annually, OPM provides federal agencies            on the Statements of Changes in Net Position and in
with cost factors for the computation of current year        Note 12, Reconciliation of Net Cost of Operations to
imputed costs. These cost factors are multiplied by          Budget.

Imputed Costs Absorbed by the OPM (in Thousands)
    Component                                                    FY 2013                               FY 2012
    Retirement                                          $                       16,677      $                         14,889
    Federal Employees Health Benefits                                           15,119                                17,375
    Federal Employees’ Group Life Insurance                                          47                                   43
    Total imputed costs covered by the OPM              $                       31,843      $                         32,307




	                                                       Section Six: Financial Management Discussion and Analysis          61
Note 12—Reconciliation of Net Cost                                      of $64.9 million from FY 2012, when there were
of Operations to Budget                                                 excess resources of $107.5 million. This net decrease
                                                                        resulted primarily from a $3.9 million increase in
The Reconciliation of Net Cost of Operations to
                                                                        resources available (spending authority from offsetting
Budget demonstrates the relationship between
                                                                        collections) netted against the decrease of
the OCC’s proprietary accounting (net cost of
                                                                        $61.0 million in resources used (obligations
operations) and budgetary accounting (net obligations)
                                                                        incurred), and the $0.4 million decrease in imputed
information. For FY 2013, the statement on the
                                                                        financing offset with $0.4 million transfer out without
next page shows a total use of resources to finance
                                                                        reimbursement in FY 2012.
activities of $42.6 million. This is a net decrease




62      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
                             Office of the Comptroller of the Currency
                         Reconciliation of Net Cost of Operations to Budget
                                For the Years Ended September 30, 2013 and 2012
                                                              (in Thousands)



                                                                                            FY 2013                    FY 2012

    Resources used to finance activities
    Budgetary resources obligated
       Obligations incurred                                                            $        1,016,211         $           1,077,171
       Less: Spending authority from offsetting collections                                    (1,005,453)                   (1,001,516)
       Net obligations                                                                             10,758                        75,655
    Other resources
       Transfer out without reimbursement                                                                0                         (433)
       Imputed financing sources (Note 11)                                                         31,843                        32,307
    Total resources used to finance activities                                         $           42,601         $            107,529



    Resources used to finance items not part of the net cost of operations

       Change in budgetary resources obligated for goods, services, and
       benefits ordered but not yet provided                                                       16,908                       (24,170)
       Resources that finance the acquisition of assets                                           (50,906)                      (53,937)
       Adjustment to net obligated balance that does not affect net cost of
       operations                                                                                        0                          433

    Total resources used to finance items not part of the net cost of operations                  (33,998)                      (77,674)
    Total resources used to finance the net cost of operations                         $             8,603        $              29,855


    Components of the net cost of operations that will not require or
    generate resources in the current period
    Components requiring or generating resources in future periods
       Change in deferred revenue                                                                  (2,076)                        5,834
       Increase in exchange revenue receivable from the public                                     (3,743)                            2
       Total components that will require or generate resources in future periods                  (5,819)                        5,836


    Components not requiring or generating resources
       Depreciation and amortization                                                               21,808                        22,554
       Net increase (decrease) in bond premium                                                       4,611                       (4,036)
       Other                                                                                             8                            0
       Total components that will not require or generate resources                                26,427                        18,518


    Total components of net cost of operations that will not require or
    generate resources in the current period                                                       20,608                        24,354

    Net cost of operations                                                            $            29,211         $              54,209




	                                                                Section Six: Financial Management Discussion and Analysis            63
Note 13—Contingent Liabilities                                          As of September 30, 2013, there were two
                                                                        contingencies for litigation involving the OCC where
The OCC recognizes and discloses contingencies
                                                                        the risk of loss was reasonably possible. For these
in accordance with SFFAS No. 12, “Recognition of
                                                                        two contingencies, there was a reasonable possibility
Contingent Liabilities Arising From Litigation.” The
                                                                        that the OCC could incur a loss of $950,000, which
OCC is party to various administrative proceedings,
                                                                        comprises $350,000 in back pay and $600,000 in
legal actions, and claims brought against the agency,
                                                                        compensatory damages. As of September 30, 2012,
including threatened or pending litigation involving
                                                                        the OCC reported contingencies for litigations totaling
federal employment claims, some of which may
                                                                        $2,175,000 where the risk of loss was reasonably
ultimately result in settlements or decisions against the
                                                                        possible.
federal government.




64      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Independent Auditor’s Report




                                          Independent Auditor’s Report


Comptroller of the Currency
Office of the Comptroller of the Currency

Inspector General
Department of the Treasury

Report on the Financial Statements

We have audited the accompanying Balance Sheet of the Office of the Comptroller of the Currency (OCC) as of
September 30, 2013, and the related Statements of Net Cost, Changes in Net Position, Budgetary Resources and
Custodial Activity for the year then ended (hereinafter referred to as the financial statements) and the related notes
to the financial statements.

Management’s Responsibility for the Financial Statements

OCC management is responsible for the preparation and fair presentation of the financial statements in accordance with
accounting principles generally accepted in the United States of America; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements that are
free from material misstatement, whether due to fraud or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on these financial statements based on our audit. We conducted our audit
in accordance with auditing standards generally accepted in the United States of America; the standards applicable
to financial statement audits contained in Government Auditing Standards issued by the Comptroller General of
the United States, and the Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for
Federal Financial Statements. Those standards and OMB Bulletin No. 14-02 require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the financial
statements. The procedures selected depend on the auditor’s judgment, including the assessment of the risks of
material misstatement of the financial statements, whether due to fraud or error. In making those risk assessments,
we considered internal control relevant to the OCC’s preparation and fair presentation of the financial statements in
order to design audit procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the OCC’s internal control. Accordingly, we express no such opinion. An audit also




	                                                      Section Six: Financial Management Discussion and Analysis   65
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant accounting
estimates made by management, as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our audit
opinion.

Opinion

In our opinion, the financial statements referred to above present fairly, in all material respects, the financial position
of the Office of the Comptroller of the Currency as of September 30, 2013, and its net cost, changes in net position,
budgetary resources and custodial activity for the year then ended, in accordance with accounting principles
generally accepted in the United States of America.

Other Matters

The financial statements of OCC as of September 30, 2012 were audited by other auditors who issued an unmodified
opinion dated October 31, 2012.

Required Supplementary Information

Accounting principles generally accepted in the United States of America require that the information in Section
Six, pages 40 through 45, and pages 72 through 77 be presented to supplement the basic financial statements. Such
information, although not a part of the basic financial statements, is required by the Federal Accounting Standards
Advisory Board who considers it to be essential part of financial reporting for placing the basic financial statements
in an appropriate operational, economic, or historical context. We have applied certain limited procedures to
the required supplementary information in accordance with auditing standards generally accepted in the United
States of America, which consisted of inquiries of management about the methods of preparing the information
and comparing the information for consistency with management’s responses to our inquiries, the basic financial
statements, and other knowledge we obtained during our audit of the basic financial statements. We do not express
an opinion or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audit was conducted for the purpose of forming an opinion on the basic financial statements as a whole. The
information in the Comptroller’s Viewpoint, and Sections One, Two, Three, Four, and Five of OCC’s fiscal year
2013 Annual Report is presented for purposes of additional analysis and is not a required part of the basic financial
statements. Such information has not been subjected to the auditing procedures applied in the audit of the basic
financial statements, and accordingly, we do not express an opinion or provide any assurance on it.




66      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated November 20, 2013, on
our consideration of the OCC’s internal control over financial reporting and our tests of its compliance with certain
provisions of laws, regulations, and other matters. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards in considering the OCC’s internal control over
financial reporting and compliance.




Washington, D.C.
November 20, 2013




	                                                       Section Six: Financial Management Discussion and Analysis   67
                  Independent Auditors’ Report on Internal Control over Financial Reporting


Comptroller of the Currency
Office of the Comptroller of the Currency

Inspector General
Department of the Treasury

We have audited, in accordance with the auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No.14-02, Audit Requirements
for Federal Financial Statements, the balance sheet and statements of net cost, changes in net position, budgetary
resources, and custodial activity of the Office of the Comptroller of the Currency (OCC), as of and for the year
ended September 30, 2013, and the related notes to the financial statements, which collectively comprise OCC’s
basic financial statements, and have issued our report thereon dated November 20, 2013.

Internal Control over Financial Reporting

In planning and performing our audit of the financial statements, we considered the OCC’s internal control over
financial reporting (internal control) to determine the audit procedures that are appropriate in the circumstances for
the purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an opinion
on the effectiveness of the OCC’s internal control. Accordingly, we do not express an opinion on the effectiveness
of the OCC’s internal control. We did not test all internal controls relevant to operating objectives as broadly defined
by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent, or detect and correct,
misstatements on a timely basis. A material weakness is a deficiency, or a combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of the OCC’s financial statements
will not be prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this section and
was not designed to identify all deficiencies in internal control that might be material weaknesses or significant
deficiencies. Given these limitations, during our audit we did not identify any deficiencies in internal control that we
consider to be material weaknesses. However, material weaknesses may exist that have not been identified.




68      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results of that
testing, and not to provide an opinion on the effectiveness of the OCC’s internal control. This report is an integral
part of an audit performed in accordance with Government Auditing Standards in considering the OCC’s internal
control. Accordingly, this communication is not suitable for any other purpose.




Washington, D.C.
November 20, 2013




	                                                      Section Six: Financial Management Discussion and Analysis   69
                         Independent Auditors’ Report on Compliance and Other Matters


Comptroller of the Currency
Office of the Comptroller of the Currency

Inspector General
Department of the Treasury

We have audited, in accordance with the auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements
for Federal Financial Statements, the balance sheet and statements of net cost, changes in net position, budgetary
resources, and custodial activity of the Office of the Comptroller of the Currency (OCC), as of and for the year
ended September 30, 2013, and the related notes to the financial statements, which collectively comprise OCC’s
basic financial statements, and have issued our report thereon dated November 20, 2013.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether OCC’s financial statements are free from material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the determination of financial statement
amounts and certain provisions of other laws and regulations specified in OMB Bulletin No. 14-02. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and accordingly, we do
not express such an opinion. The results of our tests disclosed no instances of noncompliance or other matters that
are required to be reported under Government Auditing Standards or OMB Bulletin No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the Federal
Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance with FFMIA was
not an objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of FFMIA
disclosed no instances in which the OCC’s financial management systems did not substantially comply with the (1)
federal financial management system requirements, (2) applicable federal accounting standards, and (3) application
of the United States Government Standard General Ledger at the transaction level.




70      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of that testing,
and not to provide an opinion on the OCC’s compliance. This report is an integral part of an audit performed
in accordance with Government Auditing Standards in considering the OCC’s compliance. Accordingly, this
communication is not suitable for any other purpose.




Washington, D.C.
November 20, 2013




	                                                       Section Six: Financial Management Discussion and Analysis    71
Other Accompanying Information
Performance Measures and Results
The OCC’s FY 2013 performance measures, workload indicators, customer service standards, and results are
presented in figure 9.
Figure 9: Performance Measures, Workload Indicators, Customer Service Standards, and Results

                                                                                                                                FY 2013
 Strategic                Performance measure workload indicator                             FY         FY         FY
   goal                          customer service standard                                  2010       2011       2012       Target    Actuala
I. A safe and sound national banking system and federal savings associations
               Percentage of national banks and federal savings associations with
                                                                                              72%        75%          76%      90%           80%
               composite CAMELS rating of 1 or 2b
               Rehabilitated problem national banks and federal savings associations
               as a percentage of the problem national banks one year ago (CAMELS             22%        22%          27%      40%           34%
               3, 4, or 5)b
               Percentage of national banks and federal savings associations that are
                                                                                              91%        93%          92%      95%           94%
               well capitalizedb
               Percentage of critically undercapitalized banks and federal savings
               associations on which responsible action is taken within 90 calendar          100%       100%       100%       100%      100%
               days after they become critically undercapitalized
               Average survey response that the report of examination clearly
               communicated examination findings, significant issues and the                   1.47       1.45        1.41    <1.75          1.35
               corrective actions management needed to takec
II. Fair access to financial services and fair treatment of national bank and federal savings association customers
               Percentage of national banks and federal savings associations with
               consumer compliance rating of 1 or 2. For institutions with assets over
                                                                                              96%        96%          93%      94%           94%
               $10 billion these ratings will reflect only those laws and regulations for
               which the OCC has enforcement and supervisory authority
               Percentage of community banks that are within one year of their first
               Intermediate Small Bank or Large Bank Community Reinvestment
                                                                                             100%       100%       100%       100%      100%
               Act examination for which the OCC offers to provide consultation on
               community development opportunities
               Percentage of consumer complaints closed within 60 calendar
                                                                                               3%        44%          56%      80%           71%
               days of receipt
                                                                                            80,336/   85,127/    66,161/     45,000/   43,370/
               Number of consumer complaints opened/closed during the fiscal yeard
                                                                                             79,660    85,128     59,130      50,000    44,274
III. A flexible legal and regulatory framework that enables national banks and federal savings associations to provide a full, competitive
array of financial services consistent with statutory and prudential safety and soundness constraints
               Percentage of external legal opinions issued within established
                                                                                              85%        91%          90%      86%           96%
               time frames
               Number of external legal opinions issued during the fiscal year                   64         77         59        60           44
               Percentage of licensing applications and notices filed electronically          44%        53%          42%      35%           39%
               Number of licensing applications and notices filed electronically during
                                                                                             1,440      1,610      1,374      1,100      1,320
               the fiscal year
               Percentage of licensing applications and notices completed within
                                                                                              96%        97%          98%      95%           97%
               established time frames
               Number of licensing applications and notices completed during the
                                                                                             1,344      1,382      1,614      1,600      2,378
               fiscal year
               Average survey rating of the overall licensing services provided
                                                                                               1.15       1.31        1.22     <1.5          1.25
               by the OCCe
IV. A competent, highly motivated, and diverse workforce that makes effective use of OCC resources

               Total OCC costs relative to every $100,000 in assets regulated                $9.28      $8.76     $10.51      $9.22      $9.99




72       Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Note: Prior to FY 2012, OCC performance measures included only supervision of national banks. On July 21, 2011, the OCC assumed
responsibility for regulating federal savings associations. Therefore, FY 2012 is the new baseline year for OCC, with new measures that
include both national banks and federal savings associations. All data prior to FY 2012 include only national banks.
a
  The FY 2013 performance numbers shown in bold italics are estimates. Some performance data are obtained from quarterly call reports
from banks. The September 30, 2013, call reports are not due until 30 or 45 days after the end of the period. Additionally, examinations
concluded late in the fiscal year are not finalized for another 30 to 60 days. As a result, complete fiscal year data are not yet available;
therefore, estimates have been reported.
b
  These performance measures for fiscal year 2013 are below target primarily because of the difficult economic situation the entire financial
industry is facing. The OCC continues to closely monitor the capital levels and performance of all its banks and, when necessary, initiates
formal and informal agreements to enhance its level of supervision.
c
    The examination survey is based on a five-point scale, in which 1 indicates complete agreement and 5 indicates complete disagreement.
d
  The total complaint numbers include referrals to the Federal Reserve, FDIC, National Credit Union Administration, or any other agency or
entity that is not a national bank, as well as those complaints serviced on behalf of the CFPB.
e
    The licensing survey is based on a five-point scale, in which 1 indicates outstanding and 5 indicates significantly deficient.



Improper Payments Elimination and                                             recovery. The underlying causes and contributing
Recovery Improvement Act                                                      factors are identified quickly, and control measures
                                                                              are implemented to prevent additional erroneous
The Improper Payments Elimination and Recovery                                payments.
Improvement Act of 2012, as implemented by the
OMB, requires federal agencies to review all programs                         The OCC corrected and recovered all erroneous
and activities annually and identify those that may                           payments made during the year. Figure 10 summarizes
be susceptible to significant erroneous payments.                             the OCC’s erroneous payments for FY 2013 and
The OCC analyzed payments (excluding payroll)                                 FY 2012.
made during FY 2013 and identified 159 erroneous
                                                                              Figure 10: Erroneous Payments
payments requiring adjustments totaling $151,336.
In FY 2013, the definition of erroneous payments                                                                    FY 2013          FY 2012
was expanded to include payments to employees,                                 Number of payments                           159                11
specifically travel reimbursements, which accounted                            Dollar value of adjustments            $151,336            $573
for the increase since FY 2012. Erroneous payments                            Source: OCC data.
are identified and monitored daily to ensure prompt




	                                                                       Section Six: Financial Management Discussion and Analysis               73
Assurance Statement                                                      controls, configuration management, and contingency
                                                                         planning weaknesses. We have completed corrective
The Office of the Comptroller of the Currency (OCC)                      actions for the security management, access controls,
met the internal control requirements of the Federal                     and configuration management recommendations.
Managers’ Financial Integrity Act (FMFIA), the                           Our revised contingency and disaster recovery
Federal Financial Management Improvement Act                             strategy extends over a consecutive four-year period
(FFMIA), and Office of Management and Budget                             beginning in FY 2014. It incorporates the incremental
(OMB) Circular A-123 during fiscal year (FY) 2013.                       deployment of the technology systems, infrastructure,
The OCC’s systems of management control ensure that                      and hosting facilities necessary to sustain OCC priority
                                                                         business processes and functions in the midst of a
•	   programs achieve their intended results;                            disruptive event.
•	   resources are used in accordance with the agency’s
     mission;                                                            I am also providing unqualified assurance that our
•	   programs and resources are protected from waste,                    supervision programs achieved intended results despite
     fraud, and mismanagement;                                           the extraordinary challenges that continued to confront
•	   laws and regulations are followed;                                  national banks and federal savings associations
•	   controls are sufficient to minimize improper or                     (collectively, banks).
     erroneous payments;                                                 The financial performance of federally chartered
•	   performance information is reliable;                                institutions on average has improved. Although the
•	   system security is in substantial compliance with                   outlook for the U.S. economy is generally positive,
     relevant requirements;                                              vulnerabilities remain that could undermine the pace
•	   continuity of operations planning in critical areas                 and strength of the recovery. The global economy will
     is sufficient to reduce risk to reasonable levels; and              remain challenged due to stress from the Eurozone
•	   financial management systems are in compliance                      crisis, slowdown in Asia, and uncertainty about the
     with federal financial systems standards, i.e.,                     U.S. fiscal situation. With the expectation of slow
     FMFIA Section 4 and FFMIA.                                          economic growth and uncertain regulatory and
I am providing unqualified assurance that the above                      compliance landscapes, bank revenue will continue to
listed management control objectives were achieved                       be under significant pressure. Banks will be challenged
by the OCC without material weakness during                              to identify ways to grow revenue, prudently diversify
FY 2013. Specifically, this assurance is provided                        balance sheets, effectively manage expenses, and
relative to Sections 2 and 4 of the FMFIA.                               generate acceptable returns on capital. As legislative
                                                                         and regulatory reform continues to take shape, banks
The OCC conducted its assessment of the effectiveness                    are addressing the related challenges of how to
of its internal control over financial reporting, which                  respond and whether there is a need for fundamental
includes the safeguarding of assets and compliance                       shifts in their business models and strategic plans.
with applicable laws and regulations, in accordance                      Institutions will need to make well-informed strategic
with the requirements of Appendix A of OMB Circular                      decisions that preserve their ability to compete and be
A-123. Based on the results of this evaluation, the                      profitable while prudently managing risks. Moreover,
OCC can provide unqualified assurance that its                           problem banks face additional challenges and tend to
internal control over financial reporting was operating                  be concentrated in the states most adversely affected
effectively as of June 30, 2013, and no material                         by the housing crisis. While still too high, the number
weaknesses were found in the design or operation of                      of these banks is declining.
the internal control over financial reporting.
                                                                         As part of our efforts to address these supervisory
I am reporting substantial compliance with the                           challenges, we have strengthened our staffing and
requirements imposed by the FFMIA. In their                              internal processes through several program initiatives
FY 2012 report on internal control over financial                        designed to enhance our allocation of resources,
reporting, our external auditors identified a significant                enhance metrics and analytics, and make process
deficiency related to security management, access                        improvements. We have increased staffing levels

74       Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
across our bank supervision program. We have had              more refined analytical tools and more granular
success with hiring experienced professionals in              reporting from banks. The third edition of the NRC’s
several specialty areas, including credit, operational        Semiannual Risk Perspective was issued in April.
risk, Bank Secrecy Act/Anti-Money Laundering                  The report provides examiners and bankers with
(BSA/AML), and information technology. To develop             the OCC’s view, derived from supervisory activity
and engage our examiners, we provide in-house and             and outside sources, of where systemic threats are
external formal training and rotational assignment            building. It presents the empirical data that support our
programs that foster information sharing, on-the-job          conclusions. The NRC’s internal issuances are also
training, and leadership development.                         used by our examiners to identify and monitor risks.

Our EXCEL program, launched in FY 2012, was                   We continue to enhance our collaboration and
expanded and has “graduated” our first group of               coordination with the Federal Reserve Board, the
examiners. This accelerated development program               Federal Deposit Insurance Corporation, and the
provides the agency with a cadre of specialists               Consumer Financial Protection Bureau to better
positioned to step into future leadership roles. In           leverage our resources and reduce regulatory burden
completing the integration of our OTS and OCC                 on the institutions we supervise. We actively seek
examination workforce, we launched an aggressive              their input early in the process as we develop
cross-credentialing program that qualifies examiners          examination strategies and invite them to attend
to lead examinations of both national banks and               meetings of the NRC. We are also working to build
federal savings associations. Process improvements in         and strengthen international regulatory relationships
our large bank supervision have included realigning           through participation in supervisory colleges and crisis
our team of lead experts under a senior manager.              management groups.
The lead experts also were given a broader role
to ensure that we are achieving our objectives                The OCC management team continues to focus on
of internal and external collaboration to enhance             ensuring that issues, trends, and risks are discussed
resources, using supervision analytics in support of          and, as appropriate, addressed in policy guidance and
examination objectives and reporting, and providing           regulations. Among other issuances to communicate
expert guidance on the application of new rules and           sound practices, we have published guidance on
handbooks.                                                    sound leveraged lending practices and proposed
                                                              guidance on deposit advance products. Our examiners
Consistent with our strategic initiatives, we have            reinforce with banks the standards addressed in our
implemented work streams to achieve a more                    capital planning guidance. Among several efforts
integrated “big picture” approach to supervision.             to promote consistency in our supervision, we have
This approach includes our process to integrate               made significant progress to integrate the OCC and
market-based and supervisory data and analyses                OTS policy platforms. We also have made progress
more effectively into our supervision strategies and          in updating the Comptroller’s Handbook booklets,
provide examiners and bankers with forward-looking            which serve as the primary source of information for
perspectives on emerging risks and pressure points,           examiners and bankers on the OCC’s bank supervision
both systemically and for individual organizations. We        program and sound risk management practices. In
have placed additional emphasis on supervisory and            addition, a priority has been to enhance our banker and
analytical reporting to conduct ongoing supervision,          industry outreach activities that allow us to discuss and
peer analysis, and benchmarking across banks.                 provide guidance on risk management practices and
                                                              emerging risks.
The National Risk Committee (NRC) continues to
serve as the agency’s primary forum for monitoring            We have communicated our elevated expectations
the condition of the banking industry and advancing           for governance and risk management of large banks
our efforts to identify threats to the system’s safety        and are measuring progress in achievement in the
and soundness. We have continued to enhance our               following areas: Board willingness to provide credible
data collection, analytical tools, and technology.            challenge, talent management and compensation,
OCC examiners will benefit from the addition of               defining and communicating risk appetite across

	                                                        Section Six: Financial Management Discussion and Analysis   75
the company, development and maintenance of                             In addition, the OCC continues to work closely with
strong audit and risk management functions, and                         the federal banking agencies to share information on
sanctity of the national bank charter. We assess and                    mortgage servicing supervisory activities. We continue
report progress on a quarterly basis, and our large                     to assess all mortgage servicers’ ability to achieve and
bank quality assurance function has incorporated                        maintain effective mortgage servicing, foreclosure,
our supervision of these areas into its program. We                     and loss mitigation processes. We have enhanced
continue to refine our guidance in these areas to                       our centralized planning, monitoring, and tracking of
promote consistency in interpretation and application,                  activities associated with the amended consent orders
and we are working to incorporate these expectations                    to ensure that the largest regulated mortgage servicers
into applicable guidance.                                               under these orders are correcting all deficiencies in a
                                                                        timely and consistent manner.
Pursuant to the Dodd–Frank Wall Street Reform and
Consumer Protection Act, the OCC implemented the                        The OCC’s efforts continue to focus on BSA/AML
annual company-run stress test for national banks                       compliance and the USA PATRIOT Act, as well as
and federal savings associations with total assets                      monitoring compliance with economic and trade
greater than $50 billion. In coordination with the                      sanctions administered and enforced by the Office
Federal Reserve, in 2013 we implemented processes                       of Foreign Assets Control. The OCC is committed to
for examining the stress testing models and analytical                  assessing that institutions under our supervision have
frameworks used by banks to project revenues,                           effective controls in place to safeguard them from
expenses, losses, and capital ratios under hypothetical                 use as vehicles to launder money for drug traffickers
distressed economic conditions. The objective of this                   and transnational and other criminal organizations
examination process is to ensure that each bank’s stress                or to facilitate the financing of terrorist acts. BSA
testing process and approach are credible and provide                   compliance is inherently difficult.
the OCC, the board of directors, and management with
reliable, forward-looking risk information that can                     The OCC has made substantial progress in
be used to assess capital adequacy. We summarized                       improving our supervision of BSA/AML. These
the results of our examinations in supervisory letters                  efforts include updates to examiner training and
issued to each institution in April. Implementation of                  guidance, and identifying steps that we can take in
the Dodd–Frank Act stress testing requirements for                      our examination process to obtain a holistic view of
institutions with total assets between $10 billion and                  the bank’s BSA/AML compliance more promptly.
$50 billion will commence in FY 2014.                                   We have established a cross-functional review team
                                                                        to ensure consistency in large bank BSA/AML
The OCC is represented on various interagency                           supervision and enforcement. We also have established
and international committees, including the Federal                     a Major Matters Supervision Review Committee to
Financial Institutions Examination Council (FFIEC),                     further strengthen and enhance the review process of
the Financial Stability Oversight Council, the Basel                    significant enforcement cases, including large bank
Committee on Banking Supervision, and the Financial                     BSA/AML cases. This committee includes the most
and Banking Information Infrastructure Committee,                       senior staff within the OCC. Consistent with new
and we maintain an active dialogue with other external                  internal guidance, we more heavily weight BSA/AML
groups, such as the Financial Accounting Standards                      in the management component of the CAMELS rating.
Board. In July, we joined the other federal banking                     Finally, we continue to maintain a dialogue with the
regulatory agencies in issuing comprehensive revisions                  Financial Crimes Enforcement Network and other
to the capital rules of banks. The revisions incorporate                regulatory bodies to ensure prompt revision to policies
changes to the international capital framework                          and guidance provided to OCC staff.
published by the Basel Committee as well as certain
provisions of the Dodd–Frank Act. The rules serve to                    Another area of concern is the increase in the
strengthen our nation’s financial system by reducing                    sophistication of cyber threats. Cyber-attacks are a
systemic risk and improving safe and sound operation                    significant threat to banks of all sizes. Adversaries
of the banks we regulate.                                               have the motivation and resources to create attacks
                                                                        with significant destructive intent. Financial

76      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
institutions have significant dependencies on                  •	   OMB Circular A-11, Preparation, Submission, and
telecommunications and third parties, providing                     Execution of the Budget;
adversaries with opportunities for attacks that could          •	   OMB Bulletin 06-03, Audit Requirements for
disrupt multiple institutions. Our supervision strategy             Federal Financial Statements;
has been to ensure that institutions continue to focus         •	   Statement on Auditing Standards No. 115,
on processes and controls to mitigate this rapidly                  Communicating Internal Control Related Matters
changing threat through strong risk management                      Identified in an Audit; and
and governance processes and controls, and through             •	   Treasury Directive 40-04, Treasury Internal
ongoing senior management and board involvement                     (Management) Control Program.
and support. In addition, we are strengthening
processes to share threat information and mitigation           Information considered in our control assessment
strategies among agencies and financial institutions.          included

The OCC has issued guidance and alerts and has                 •	   FMFIA certifications submitted by each Executive
collaborated with the other agencies to address                     Committee member;
information systems and technology policy issues               •	   FFMIA certification submitted by our Chief
that can assist banks in managing their risks. In                   Financial Officer;
June, we hosted a national call for our examiners,             •	   the OCC’s Strategic Risk Management Plan;
followed by a similar call for community bankers, to           •	   results of internal control testing under OMB
increase awareness of the evolving cyber landscape,                 Circular A-123, Appendix A;
preparedness, and strategies for community banks.              •	   quality management program descriptions
We have established a Senior Critical Infrastructure                submitted by each Executive Committee
Officer in our policy unit to coordinate the OCC’s                  department;
response to the increasing sophistication of cyber             •	   results of control self-assessments completed by
threats and critical infrastructure vulnerabilities as              OCC managers in FY 2013;
well as lead efforts to enhance information sharing            •	   audit reports and evaluations issued by the
and coordination across federal banking and state                   Government Accountability Office (GAO) and the
regulatory agencies. The OCC chairs the Cybersecurity               Office of the Inspector General;
and Critical Infrastructure Working Group established          •	   results of other external and internal reviews;
by the FFIEC in June. The FFIEC formed the group               •	   assessment of the Improper Payments Elimination
to promote coordination and communications among                    and Recovery Act submitted to the Department of
its member agencies and build on existing efforts                   the Treasury in July 2013;
to strengthen the activities of other interagency and          •	   GAO Core Financial System Requirements
private sector groups. The OCC will also continue to                Checklist;
strengthen partnerships with law enforcement, other            •	   FFMIA Risk Model and Financial Management
federal agency stakeholders, and the intelligence                   System Self-Assessment Checklists submitted to
community on common initiatives.                                    the Department of the Treasury in July 2013;
                                                               •	   unqualified and timely audit opinion on FY 2012
Analytical Basis of Assurance Statement                             financial statements; and
                                                               •	   certified public accountant Williams Adley’s
The OCC evaluated its management controls in
                                                                    October 2013 status report on the FY 2013
accordance with the FY 2013 Secretary’s Assurance
                                                                    financial statement audit.
Statement Guidance of July 1, 2013, and considered

•	   OMB Circular A-127, Financial Management
     Systems;
•	   OMB Circular A-130 Revised, Management of                                                          Thomas J. Curry
     Federal Information Resources;                                                            Comproller of the Currency




	                                                         Section Six: Financial Management Discussion and Analysis    77
Abbreviations
ABS 	            asset-backed securities

ASC 	            Accounting Standards Codification

BSA/AML 	 Bank Secrecy Act and Anti-Money Laundering

CAMELS 	         capital, asset quality, management, earnings, liquidity, and sensitivity to market risk

CFPB 	           Consumer Financial Protection Bureau

CMP 	            civil money penalty

CRA 	            Community Reinvestment Act

CSRS 	           Civil Service Retirement System

FASAB 	          Federal Accounting Standards Advisory Board

FASB 	           Financial Accounting Standards Board

FBWT 	           fund balance with Treasury

FDIC 	           Federal Deposit Insurance Corporation

FERS 	           Federal Employees Retirement System

FFIEC 	          Federal Financial Institutions Examination Council

FFMIA 	          Federal Financial Management Improvement Act

FMFIA 	          Federal Managers’ Financial Integrity Act

FY 	             fiscal year

GAAP 	           generally accepted accounting principles

GAO 	            Government Accountability Office

JPMC 	           JPMorgan Chase

78	      Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
LSS 	     Lean Six Sigma

MDI 	     minority-owned depository institution

MRA 	     matter requiring attention

NPR 	     notice of proposed rulemaking

NRC 	     National Risk Committee

OCC 	     Office of the Comptroller of the Currency

OM 	      Office of Management

OMB 	     Office of Management and Budget

OMWI 	    Office of Minority and Women Inclusion

OPM 	     Office of Personnel Management

OTS 	     Office of Thrift Supervision

QM 	      qualified mortgage

QRM 	     qualified residential mortgage

SAR 	     suspicious activity report

SFFAS 	   Statement of Federal Financial Accounting Standards

TRUPS 	   trust preferred securities

USC 	     U.S. Code




              79
	Abbreviations	
Index
A
accounting principles. See generally accepted accounting principles (GAAP)
accounting standards
   Accounting Standards Codification (ASC), 52, 54
   basis of, 51
   Federal Accounting Standards Advisory Board (FASAB), 51
accounts receivable, 52, 56
anti-money laundering (AML). See Bank Secrecy Act/Anti-Money Laundering
asset quality
   in historical perspective, 14
assets
   assessing quality of, 14
   composition of, 44
   of OCC, 43–44
Assistant National Bank Examiner recruitment program, 41
assurance statement, 74–77

B
bank capital
  generating returns on, 74
  in historical perspective, 10
  at OCC-supervised banks, 5
  strengthening of, 8, 10–11
bank management
  in historical perspective, 17
Bank Control Act, 39
BankNet, 6
Bank Secrecy Act/Anti-Money Laundering (BSA/AML), 4, 20, 22, 75, 76
Basel Committee on Banking Supervision, 8, 10, 76
benefits. See employee benefits
Bloom, Thomas R., 34, 36, 40–41
budgetary resources, 42, 49

C
CAMELS, 11, 22, 72, 76
capital. See bank capital
charge-off rates, 31, 32
chartering of banks, 17
Chase, Salmon P., 2, 27, 28
Chief Counsel’s Office
   Amy Friend, 34–35
Chief Financial Officer

80	    Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2013
   Thomas R. Bloom, 36
   letter from, 40–41
Chief National Bank Examiner
   John C. Lyons Jr., 34, 35
Chief of Staff
   Paul M. Nash, 34
civil money penalties (CMP), 18, 44, 54, 56
Civil Service Retirement System (CSRS), 53
Cofield, Joyce, 24, 36
commercial real estate. See real estate, commercial
Community Affairs Department, 34
community banks
   and capital rules, 5
   information systems and technology issues for, 77
   number of OCC-supervised, inside front cover
   OCC supervisory programs, 5–6, 11–13
   revenue challenges for, 31
   stress testing, 1
Community Development Financial Institutions Fund, 13
Community Reinvestment Act (CRA), 1, 21, 22, 39
compensation
   Federal Employees’ Compensation Act, 60
Comptroller of the Currency. See Curry, Thomas J.
Comptroller’s Viewpoint, 4–7
Condition of the Federal Banking System. See federal banking system
consent orders, 76
Consumer Financial Protection Bureau (CFPB), 5, 15, 22
contingent liabilities, 64
Coolidge, Calvin, 29
cost of operations, 43, 61–63
credit
   staffing levels related to, 74–75
credit quality, 31
credit rating agencies, 15
credit risk, 14
Curry, Thomas J., 8, 9, 13, 18, 20, 21
   assurance statement, 74–77
   biography of, 33
   on BSA/AML supervision, 20, 22
   on capital rules, 11
   Comptroller’s Viewpoint, 4–7
   on consumer protection, 22
   on CRA, 21
   and information security, 19
   and loan-loss reserves, 16
   on mortgage servicers, 18

      81
	Index	
   on OCC’s function, 22
   on OCC’s heritage, 9
custodial revenues and collections, 50, 54
Customer Assistance Group, 36
cyber-attacks, 19, 76–77
Cybersecurity and Critical Infrastructure Working Group, 77

D
data analytics, 40
Dawes, Charles G., 28–29
debt collection, 24
dedicated collections, 52, 54
denial-of-service attacks, 19
deposit advance products, 24, 75
diversity, 23
diversity, OMWI and. See Office of Minority and Women Inclusion (OMWI)
Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010
   and administration of retiree benefits, 60
   and capital standards, 10
   and community banks, 11–12
   and consumer protection, 22
   implementation, 5
   lending limits rule, 17
   mortgage rules, 15–16
   OCC and OTS integration, 2
   and OMWI, 23
   section 165(i), 13
   section 610, 17
   section 941, 15–16
   stress testing rule, 13–14, 76

E
earmarked funds. See dedicated collections
economic recovery, 4, 8, 31–32, 74
Economics Department
   David Nebhut, 35
employee benefits, 53–54
   Federal Employees’ Group Life Insurance (FEGLI), 53
   Federal Employees Health Benefits (FEHB), 53
   OCC 401(k) plan, 53
   postretirement life insurance benefit plan, 59
   retirement plans, 53
   Thrift Savings Plan, 53
enforcement actions, 39
Enterprise Governance, 26, 36
enterprise risk, 11

82     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
entity assets, 44
equal employment opportunity, 36
erroneous payments, 40, 73

F
federal banking system
   BSA/AML compliance, 76
   condition of, 30–31
   Dodd–Frank implementation, 5, 76
   loan performance, 32
   operating profit, 31–32
federal branches
   number of OCC-supervised, inside front cover
Federal Deposit Insurance Corporation (FDIC)
   Thomas J. Curry and, 33
   Paul M. Nash and, 34
Federal Employees’ Compensation Act, 60
Federal Employees’ Group Life Insurance (FEGLI), 53
Federal Employees Health Benefits (FEHB), 53
Federal Employees Retirement System (FERS), 53
Federal Financial Institutions Examination Council (FFIEC), 19, 33
Federal Financial Management Improvement Act (FFMIA), 74
Federal Managers’ Financial Integrity Act (FMFIA), 74
Federal Reserve
   capital rule revisions, 10
   commercial real estate study, 16
   foreclosure resolutions, 4–5
   and mortgage servicers, 18
   qualified residential mortgage exemption, 16
federal savings associations
   Community Affairs Department and, 34
   Comptroller of the Currency’s duties for, 33
   examiner qualification for, 75
   number of OCC-supervised, inside front cover
   and OCC and OTS integration, 75
   OCC assessments against, 56
   OCC funding from, 43, 49, 53, 56
   OCC mission, 1, 2, 51
   OCC performance measures, 72
   OCC supervision costs, 43
   OCC supervision of, 5–6, 74, 75
   Office of the Chief Accountant’s responsibilities, 35
   stress testing for, 76
Financial Accounting Standards Board (FASB), 16
Financial Crimes Enforcement Network (FinCEN), 20, 76
financial crisis. See also economic recovery

      83
	Index	
   and capital standards, 5
   and commercial real estate, 16
   and importance of banking system, 4
   and risks to banking system, 4
Financial Management Discussion and Analysis, 40–77
   assets, 43–44
   assurance statement, 74–77
   balance sheets, 46
   budgetary resources, 49
   cost of operations, 43, 61
   erroneous payments, 73
   financial statements, 46–49
   financial summary, 42
   fund balance with Treasury, 54
   Improper Payments Elimination and Recovery Act, 73
   imputed costs, 61
   independent auditor’s report, 65–71
   investments, 44, 55
   key components of financial condition, 43
   leases, 57
   letter from Chief Financial Officer, 39–40
   liabilities, 43, 45
   net position, 45, 48, 60
   notes to financial statements, 51–64
   other actuarial liabilities, 43, 46, 59
   performance measures and results, 72–73
   property and equipment, net, 57
   reconciliation of net cost of operations to budget, 62, 63
   rental income, 58
   revenues, 43–44
   significant accounting policies, 51–54
   statements of budgetary resources, 49
   statements of changes in net position, 48
   statements of custodial activity, 50
   statements of net cost, 47
Financial Services Information Sharing and Analysis Center, 19
financial statements, 46–49
   balance sheets, 46
   notes to, 51–64
   statements of budgetary resources, 49
   statements of changes in net position, 48
   statements of net cost, 47
Flood Disaster Prevention Act, 22
401(k) plan, 53
Friend, Amy, 35–36
fund balance with Treasury (FBWT), 44, 54

84     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
funding of OCC operations, 2, 43–44

G
generally accepted accounting principles (GAAP), 42, 51
Great Depression, 29

H
Hattix, Larry L., 6, 26, 34, 36
home equity lines of credit, 32
Home Owners’ Loan Act, 2
Hoover, Herbert, 29
housing, 4, 5. See also mortgage(s)
housing crisis, 74
Howard, Samuel T., 28
HSBC Bank USA, 18

I
Improper Payments Elimination and Recovery Act of 2012, 73
imputed costs and financing sources, 61
independent auditor’s report, 65–71
Independent Foreclosure Review, 18
information security, 19, 76–77
information technology
   investments, 45
   OCC Information Technology Services, 35, 40
   staffing levels related to, 75
internal controls, 20, 22, 40, 74
investments and related interest, 44, 52, 55

J
JPMorgan Chase (JPMC), 17
Justice, U.S. Department of, 17

K
Kelly, Jennifer C., 34, 35
Kennedy, John F., 30

L
large banks
   BSA/AML enforcement, 76
   capital requirements, 5
   corporate oversight and governance, 24–25, 75–76
   examiner staffing, 74–75, 76
   heightened expectations, 6, 24–25, 75–76
   number of OCC-supervised, inside front cover
Large Bank Supervision, Department of

      85
	Index	
    Martin Pfinsgraff, 34, 35
Law Department. See Chief Counsel’s Office
Lean Six Sigma (LSS), 40–41
leases, 58
lending limits, Dodd–Frank rule on, 17
Levonian, Mark, 34
liabilities, 52–53
    composition of, 45
licensing
    actions and timelines, 38
    applications presenting Community Reinvestment Act issues decided, 39
    change in Bank Control Act, national banks, 39
    corporate application activity, 37
    department of, 34
    and enforcement measures, 37–39
life insurance, 53–54, 59
Lincoln, Abraham, 1, 9, 27
liquidity
    in historical perspective, 12
loan losses, 16, 31
loans, 14–15, 22, 31, 32. See also mortgage(s)
Lyons, John C., Jr., 34, 35

M
Major Matters Supervision Review Committee, 76
market risk, 1, 11
McCulloch, Charlie, 28
McCulloch, Hugh, 1–2, 17, 27–28
McCulloch, Susan, 27, 28
McKinley, William, 28
Midsize and Community Bank Supervision, Department of
  Jennifer C. Kelly, 34, 35
midsize banks
  number of OCC-supervised, inside front cover
Minority Depository Institutions Advisory Committee, 6, 12–13
minority-owned banks, 12–13
minority-owned businesses, 23
minority-owned depository institutions (MDI), 12–13
money laundering. See Bank Secrecy Act/Anti-Money Laundering
mortgage(s)
  and bank capital requirements, 10
  correcting deficiencies of servicers, 76
  at OCC-supervised banks, 5, 14–15, 76




86     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Morton, Oliver P., 28
Mutual Savings Association Advisory Committee, 6, 12

N
Nash, Paul M., 34
National Bank Act (1864), 1, 9
National Bank Examiner, 29, 41
National Currency Act (1863), 1, 9, 27, 28
National Diversity Internship Program, 23
National Risk Committee (NRC), 14, 77
Nebhut, David, 35
NeighborWorks America, 1, 33
net cost of operations, 43, 61–63
net income, OCC-supervised banks, 31
net position, 45, 48, 60
non-entity assets, 44
noninterest expenses, 31
noninterest income, 31
nonperforming loans, 14
notices of proposed rulemaking (NPR), 10, 11

O
Obama, Barack, 8
Office of Enterprise Governance and Ombudsman, 26
  Larry L. Hattix, 6, 36
Office of Foreign Assets Control, 76
Office of Foreign Funds Control, 30
Office of Management (OM)
  Bloom, Thomas R., 36, 40–41
  Lean Six Sigma process improvement, 40–41
Office of Minority and Women Inclusion (OMWI), 23, 36
  Cofield, Joyce, 23, 36
Office of Personnel Management (OPM), 53
Office of the Chief Accountant, 35
Office of the Comptroller of the Currency (OCC)
  about the, 1–2
  budget authority, 42, 49, inside front cover
  Chief Counsel’s Office, 34–35
  Chief National Bank Examiner’s Office, 35
  Chief of Staff, 34
  consolidation of office locations, 40
  consumer complaints closed or referred, 72
  consumer complaints opened, 72
  Economics Department, 35
  enforcement actions (FY 2013), 39
  funding sources, 43–44

      87
	Index	
  at a glance, inside front cover
  history, 1–2, 9
  important figures in history of, 27–30
  internal control, 68–69
  licensing and enforcement, 37–39
  Midsize and Community Bank Supervision Department, 35
  mission, 1
  mortgage servicer enforcement actions, 18–19
  number of employees, inside front cover
  office locations, inside front cover
  Office of Enterprise Governance and Ombudsman, 36
  Office of Management, 36
  Office of Minority and Women Inclusion, 36
  operational risk enforcement actions, 18
  organization of, 33–36
  regulatory powers of, 1–2
  revenue derived from assessments, 43–44, inside front cover
  self-assessment and self-improvement, 25–26
Office of Thrift Supervision (OTS)
  integration, 2, 43, 53, 56, 75
  Mutual Savings Association Advisory Committee, 6
Ombudsman. See Office of Enterprise Governance and Ombudsman
operational risk, 11, 18
  staffing levels related to, 74–75
operations, cost of. See cost of operations

P
Panic of 1893, 28
Pentegra Defined Benefit Plan, 43, 53, 60
performance measures and results, 72–73
Pfinsgraff, Martin, 34, 35
post-retirement life insurance benefit plan, 53–54, 59
procurement process, 40
property and equipment, net, 52, 57
purchase cards, 40

Q
qualified mortgage rule (QM), 5, 16
qualified residential mortgages (QRM), 16

R
real estate
   commercial, 6, 14, 17
   residential, 5 (see also mortgage(s))
reconciliation of net cost of operations to budget, 62–63
Reconstruction Finance Corporation, 29

88     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
Regulation Z (Truth in Lending Act), 15
rental income, 58
reserves, 45. See also bank capital
retirement plans, 53
revenues
   components of total revenue, 43–44, 51–52
   at OCC-supervised banks, 31
risk-based supervision, 11
risk management
   information systems and technology issues, 76–77
   for large banks, 24–25, 75–76
rulemaking. See Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010

S
Saxon, James J., 30
Senate Committee on Banking, Housing, and Urban Affairs, 34
Senior Critical Infrastructure Officer, 77
service-disabled veterans, companies owned by, 40
Servicemembers Civil Relief Act (SCRA), 22
Small Business Administration, U.S., 12
small business contracts, 40
small disadvantaged businesses, 40
Stewart, Adelia M., 29
Strategic Initiatives, 25–26
stress testing, 13–14, 76
supervision by risk, 11
suspicious activity reports (SAR), 20, 22

T
Targeted Investment Program, 8
terrorism, money laundering and, 20, 76
thrifts. See federal savings associations; Office of Thrift Supervision
Thrift Savings Plan, 53
Treasury, U.S. Department of the, 1, 5, 44, 51, 52. See also fund balance with Treasury
   origins of OCC, 9
trust preferred securities (TRUPS), 10
Truth in Lending Act Regulation Z, 15

U
Uniform Standards of Professional Appraisal Practice, 15
USA PATRIOT Act, 76

V
Volcker rule, 5



      89
	Index	
W
Waters, Maxine, 18
women-owned businesses, 23, 40
World War I, 29
World War II, 30




90    Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2013
